<html>
<title> - CHALLENGES AND IMPLICATIONS OF EPA'S PROPOSED NATIONAL AMBIENT AIR QUALITY STANDARD FOR GROUND-LEVEL OZONE AND LEGISLATIVE HEARING ON S. 638, S. 751, AND S. 640</title>
<body><pre>[Senate Hearing 114-47]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-47

                 CHALLENGES AND IMPLICATIONS OF EPA'S 
 PROPOSED NATIONAL AMBIENT AIR QUALITY STANDARD FOR GROUND-LEVEL OZONE 
         AND LEGISLATIVE HEARING ON S. 638, S. 751, AND S. 640

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-001 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 3, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Flake, Hon. Jeff L., U.S. Senator from the State of Arizona......     7
Thune, Hon. John, U.S. Senator from the State of South Dakota....     9
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   133

                               WITNESSES

Olson, Hon. Pete G., U.S. Representative from the State of Texas.     6
McKee, Michael, Chairman, Uinta County Commission................    11
    Prepared statement...........................................    14
Srikanth, Kanathur ``Kanti,'' Director, Transportation Planning 
  Board, Metropolitan Washington Council of Governments, on 
  behalf of the Association of Metropolitan Planning 
  Organizations..................................................    19
    Prepared statement...........................................    22
Moore, Hon. Gary, Judge/Executive, Boone County, Kentucky, and 
  President, National Association of Regional Councils...........    42
    Prepared statement...........................................    44
Diette, Gregory B., M.D., MHS, Professor of Medicine, 
  Epidemiology and Environmental Health Science, Johns Hopkins 
  University.....................................................    53
    Prepared statement...........................................    55
Greene, Larry, Executive Director, Sacramento Metropolitan Air 
  Quality Management District....................................    59
    Prepared statement...........................................    61

                          ADDITIONAL MATERIAL

Study on reforestation published in the Proceedings of the 
  National Academy of Sciences...................................   135
Statement from Greenberg Quinlan Rosner Research--``Voters 
  Overwhelmingly Support Stricter Smog Standards''...............   145
Letter from the City of Fort Collins, Colorado, to EPA 
  Administrator McCarthy.........................................   148
Letter from the Children's Health Protection Advisory Committee 
  to H. Christopher Frey, Chair of the EPA Clean Air Scientific 
  Advisory Committee.............................................   149
Letter from the Portland Cement Association to Senator Inhofe....   151
Statement from the American Chemistry Council....................   152
Article titled From rural Utah to Dallas and L.A.: Smog besets 
  communities across U.S.........................................   156
Statement of Utah statistics from Public Opinion Strategies, the 
  Colorado College State of the Rockies Project, and Fairbank, 
  Maslin, Maullin, Metz & Associates.............................   170
Statement from Utah State University.............................   172

 
  CHALLENGES AND IMPLICATIONS OF EPA'S PROPOSED NATIONAL AMBIENT AIR 
 QUALITY STANDARD FOR GROUND-LEVEL OZONE AND LEGISLATIVE HEARING ON S. 
                        638, S. 751, AND S. 640

                              ----------                              


                        WEDNESDAY, JUNE 3, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Barrasso, Capito, Crapo, Boozman, 
Sessions, Fischer, Rounds, Sullivan, Boxer, Carper, Whitehouse, 
Merkley, Gillibrand, Booker, and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Our meeting will come to order.
    We are going to have myself and the Ranking Member, Senator 
Boxer, give our opening statements and then refer to members by 
the order they come. That will mean you will be going first, 
Mr. Olson, in explaining what your legislation is and the same 
for the rest of the members as they come in.
    The first hearing I ever held as Chairman of the Clean Air 
Subcommittee was in February 1997 on the ozone standard. It was 
the first of seven hearings held on what was then referred to 
as ``the single largest environmental regulation ever 
proposed.''
    Today, we are again conducting oversight of the EPA and the 
proposed ozone standard, which is set between 65 and 70 parts 
per billion. We will hear directly from officials responsible 
for implementing and administering EPA's new standard.
    We like to hear from people in the field who are going to 
be responsible for upholding all these brilliant things we do 
here. We want to welcome Judge/Executive Gary Moore, from Boone 
County, Kentucky; County Commissioner Mike McKee, from Uinta 
County, Utah; and Kanti Srikanth, Director of Transportation 
Planning for the National Capital Region Transportation 
Planning Board.
    We are also here to examine three pieces of legislation. 
The first bill, sponsored by Senator Thune and Senator Manchin, 
requires 85 percent of the counties that have not met the 2008 
standard to achieve it before EPA can lower the standard 
further. Congressman Pete Olson, who has introduced the House 
version of this bill, is also with us today.
    Additionally, Senator Flake is introducing two bills. The 
first extends EPA's existing timeline to review NAAQS to every 
10 years. The second amends the Exceptional Events rule, which 
States rely on when events out of human control contribute to 
ozone readings exceeding the allowed level. All three of these 
are commonsense, good government bills that strengthen the 
NAAQS setting process while advancing the trend of improved air 
quality.
    EPA's ozone proposal is the most expensive regulation in 
history with projected costs of $1.7 trillion and 1.4 million 
lost jobs. Up to 67 percent of counties fail to meet the 
proposed lower standards, which means if this rule goes 
forward, they will face a legacy of EPA regulatory oversight, 
stiff Federal penalties, lost highway dollars, restrictions on 
infrastructure investment, and increased costs to businesses.
    The costs and burdens associated with expanding roads and 
bridges will be exponential. Further concerning is that EPA's 
proposal does not even account for high levels of naturally 
occurring ozone present or transported in many parts of the 
Country, which is why pristine national parks like the Grand 
Canyon and Yellowstone would be placed in nonattainment status.
    Looking at my home State of Oklahoma, significantly, not a 
single county violates the current standard, but under this new 
standard, all 77 of my counties in Oklahoma would be out of 
attainment as you can see on this map. Currently, we are in 
attainment in every county. That is what would happen in my 
State of Oklahoma.
    We have spent a significant amount of time and valuable 
State resources to comply with the 2008 standard, but will have 
to spend an additional $35 billion to meet EPA's new standard 
should this become reality. Each household will lose an average 
of $900 a year, and the State will lose 35,503 jobs with $18 
billion in lost GDP. Every State is facing similar losses.
    In 2011, EPA proposed a standard remarkably similar to the 
one we are discussing today. The President rejected it then 
because, as he said, our economy could not handle the burden of 
its substantial price tag. Has our economy really improved so 
much in the last few years that we can easily absorb a $1.7 
trillion price tag? I would say no.
    Even Steve Beshear, the Democratic Governor of Kentucky, 
agrees. He has pledged to reduce carbon emissions in his State 
by 80 percent by 2050. Yet, he wrote President Obama and asked 
him to keep the ozone standard where it is because of the 
detrimental impact it would have on Kentucky job creators and 
manufacturers.
    That is kind of interesting, isn't it, because you have the 
Governor, who is 70 years old, who said we will comply by 2050 
with the standard in terms of emissions. He would be 105 years 
old, so it is easy to say you will comply with that. Everyone 
keep that in mind.
    I have always stood in favor of clean air. I was an 
original co-sponsor of the 1990 Clean Air Act Amendments and 
Clear Skies, but this proposal, like many of the EPA's recent 
proposals, will have negligible environmental benefits.
    It is based on questionable health benefits and comes with 
unequivocal economic costs. Instead of creating a new regime of 
costly, job-killing mandates, the EPA should focus its efforts 
on helping counties that have not yet met the 1997 and the 2008 
standards. A new standard at this time is not only 
irresponsible, but also impractical and economically 
destructive.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    The first hearing I ever held as Chairman of the Clean Air 
Subcommittee was in 1997 on the ozone standard. It was the 
first of seven hearings held on what was then referred to as 
``the single largest environmental regulation ever proposed.'' 
Today we are again conducting oversight of the EPA and the 
proposed ozone standard, which is set between 65 and 70 parts 
per billion. We will hear directly from officials responsible 
for implementing and administering EPA's new standard. I want 
to welcome Judge-Executive Gary Moore, from Boone County, 
Kentucky; County Commissioner Mike McKee, from Uintah County, 
Utah; and Kanti Srikanth who is the Director of Transportation 
Planning for the National Capital Region Transportation 
Planning Board.
    We are also here to examine three pieces of legislation. 
The first bill, sponsored by Senator Thune and Senator Manchin, 
requires 85 percent of the counties that haven't met the 2008 
standard to achieve it before EPA can lower the standard. 
Congressman Pete Olson, who has introduced the House version of 
this bill, is also with us today. Additionally, Senator Flake 
is introducing two bills. The first extends EPA's existing 
timeline to review NAAQS to every 10 years. The second amends 
the Exceptional Events rule, which States rely on when events 
out of human control contribute to ozone readings exceeding the 
allowed level. All three of these are commonsense, good 
government bills that strengthen the NAAQS setting process 
while advancing the trend of improved air quality.
    EPA's ozone proposal is the most expensive regulation in 
history with projected costs of $1.7 trillion and 1.4 million 
lost jobs. Up to 67 percent of counties fail to meet the 
proposed lower standards, which means if this rule goes 
forward, they will face a legacy of EPA regulatory oversight, 
stiff Federal penalties, lost highway dollars, restrictions on 
infrastructure investment, and increased costs to businesses. 
The costs and burdens associated with expanding roads and 
bridges will be exponential. Further concerning is that EPA's 
proposal does not even account for high levels of naturally 
occurring ozone present or transported in many parts of the 
country, which is why pristine national parks like the Grand 
Canyon and Yellowstone would be placed in nonattainment status.
    Looking at my home State of Oklahoma, not a single county 
violates the current standard, but under this new standard, the 
whole State will be in violation. We have spent a significant 
amount of time and valuable State resources to comply with the 
2008 standard, but will have to spend an additional $35 billion 
to meet EPA's new standard. Each household will lose an average 
of $900 a year, and the State will lose 35,503 jobs with $18 
billion in lost GDP. Every State is facing similar losses.
    In 2011, EPA proposed a standard remarkably similar to the 
one we're discussing today; fortunately, the President rejected 
it then because, as he said, our economy couldn't handle the 
burden of its substantial price tag. Has our economy really 
improved so much in the last few years that we can easily 
absorb a $1.7 trillion price tag? I would say no and even Steve 
Beshear, the Democrat Governor of Kentucky, agrees. He has 
pledged to reduce carbon emissions in his State by 80 percent 
by 2050, yet he wrote President Obama and asked him to keep the 
ozone standard where it is because of the detrimental impact it 
would have on Kentucky job creators and manufacturers. I'd like 
to submit that letter for the record.
    I have always stood in favor of clean air--I was an 
original cosponsor of the 1990 Clean Air Act Amendments and 
Clear Skies--but this proposal, like many of the EPA's recent 
proposals, will have negligible environmental benefits, is 
based on questionable health benefits and comes with 
unequivocal economic costs. Instead of creating a new regime of 
costly, job-killing mandates, the EPA should focus its efforts 
on helping counties that have not yet met the 1997 or the 2008 
standards. A new standard at this time is not only 
irresponsible, but also impractical and economically 
destructive.
    I look forward to hearing from our witnesses and thank my 
colleagues for their leadership on this issue.
    Thank you.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. OK. Here we go. The debate in this committee 
continues. It is a healthy one, by the way.
    Today we examine the critically important steps that the 
Obama administration is taking to strengthen the ozone 
standard, which will save lives and protect the health of our 
children and families. You never heard that from my chairman. 
He does not talk about the impact of smog on our families and I 
will.
    We know that ground-level ozone, often referred to as smog, 
is extremely harmful to human health. It is not a debatable 
point. Everyone agrees.
    It is hard for me to believe that in this Environment 
Committee, we would be looking at not making further steps that 
are required under the law to protect our families from smog. 
We know too much exposure to smog leads to cardiovascular 
disease, respiratory ailments like asthma, emphysema, and 
premature death. That is all known.
    It is our youngest and oldest generations, as well as those 
who spend the most time outdoors, who are the most vulnerable 
to the impacts of smog pollution. According to the 
Environmental Protection Agency, there are nearly 26 million 
people in the U.S. who have asthma.
    I always say to my colleagues, when you visit a school to 
talk to the kids, ask them how many have asthma or know someone 
with asthma. I guarantee you 60 percent will raise their hands 
because we know there are 7.1 million children in our Nation 
who have asthma.
    The National Ambient Air Quality Standards are the backbone 
of the Clean Air Act. They set the maximum level of an air 
pollutant, such as ozone, that is safe for us to breathe. 
Everyone has a right to know that the air they breathe is safe, 
because if they cannot breathe, they cannot go to school, they 
cannot work, they get sick, they go to the emergency room, and 
they do not have the quality of life they have a right to have.
    The Clean Air Act requires, by the way, brought to you by a 
Republican President a long time ago and updated by a 
Republican President, requires that these standards be set 
solely on the best available health science.
    To ensure the health impacts of air pollution continue to 
be addressed, EPA is required to review the standards every 5 
years. No matter what my Republican colleagues may try to claim 
today, scientists overwhelmingly agree that EPA needs to adopt 
a stricter standard to protect the health of the American 
people, especially our children and the elderly. We have known 
since 2008 that the current ozone standard is too weak to 
protect the health of our families.
    Last year, EPA proposed updating and strengthening the 
ozone standard from 75 parts per billion to a more protective 
range, between 65 and 70 parts per billion. It is also 
considering an even more protective standard of 60 parts per 
billion.
    The EPA is doing what it must do. Otherwise, they will be 
hauled to court. They have to make sure our families are 
protected.
    I have great news for those of you who want to see EPA 
continue to do their job. Just yesterday, the U.S. Court of 
Appeals for the District of Columbia Circuit found that the EPA 
has complied with the Constitution in enforcing the ozone 
standards. Say what you might say, they are on the side of the 
Constitution. They are on the side of the public health.
    Here is where we stand. We have a number of bills before us 
that will decimate this rule. That is their purpose. I do not 
question my colleagues who have written these bills, but I 
would urge them to check out the number of kids in their States 
and the number of senior citizens who will have problems if we 
do not clean up the ozone.
    The American people strongly support a tighter ozone 
standard. Last November, the American Lung Association found 
that 68 percent of voters nationwide support strengthening the 
ozone standards, including 54 percent of Republicans.
    How out of step can you be than to move forward with a bill 
that is going to stop us from protecting the health of our 
families? You are out of step. You are out of touch. Get real 
about it. These bills will have a negative effect.
    I am going to stop there, I am sure you are happy to know, 
and welcome all of our witnesses, regardless of their point of 
view.
    I want to extend a very special welcome to one of our 
witnesses, Larry Greene, the Executive Director of the 
Sacramento Air Quality Management District. Larry, thank you so 
much.
    California is on the front lines in the battle against air 
pollution. He will testify about the tremendous successes our 
State is having in implementing new air pollution standards.
    With that, I would ask to put the rest of my statement in 
the record. Thank you very much, Mr. Chairman, for your 
kindness and allowing me to be your counterpoint.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    Today's hearing will examine the critically important steps 
that the Obama administration is taking to strengthen the ozone 
standard, which will save lives and protect the health of our 
children and families.
    We know that ground-level ozone, often referred to as smog, 
results in dangerous air pollution that is extremely harmful to 
human health. It can lead to cardiovascular disease, 
respiratory ailments like asthma and emphysema, and premature 
death. And it is our youngest and oldest generations--as well 
as those who spend the most time outdoors--who are the most 
vulnerable to the impacts of smog pollution. According to the 
Environmental Protection Agency (EPA), there are nearly 26 
million people in the U.S. who have asthma, including 7.1 
million children.
    The National Ambient Air Quality Standards are the backbone 
of the Clean Air Act, and they set the maximum level of an air 
pollutant, such as ozone, that is safe for us to breathe. 
Setting an appropriate standard is crucial to protecting the 
health of millions of Americans. Everyone has a right to know 
that the air they breathe is safe--and right now, the science 
says it is not.
    The Clean Air Act requires that these standards be set 
solely on the basis of the latest available health science. To 
ensure the health impacts of air pollution continue to be 
addressed, EPA is required to review the standards every 5 
years to make sure they are up to date. Despite what some of my 
Republican colleagues may try to claim today, scientists 
overwhelmingly agree that EPA needs to adopt a stricter 
standard to protect the health of the American people, 
especially our children and the elderly. We have known since 
2008 that the current ozone standard does not provide the 
necessary health safeguards.
    Last year, EPA proposed updating and strengthening the 
ozone standard from 75 parts per billion to a more protective 
range, between 65 and 70 parts per billion. It is also 
considering an even more protective standard of 60 parts per 
billion.
    And the EPA is doing its job to protect public health. Just 
yesterday, the U.S. Court of Appeals for the District of 
Columbia Circuit upheld EPA's determinations concerning which 
regions in the U.S. have met its existing ozone standard. The 
Court found that EPA had complied with the Constitution, had 
reasonably interpreted the Clean Air Act, and in many cases 
exceeded its obligation to engage in reasoned decisionmaking.
    I often say, if people can't breathe, they can't go to work 
or school. Ozone pollution has been proven to cause thousands 
of lost school days and work days each year, as well as an 
increased number of asthma attacks and bronchitis cases, and 
more emergency room visits and hospital admissions.
    The American people strongly support a tighter ozone 
standard. Last November, the American Lung Association found 
that 68 percent of voters nationwide support strengthening the 
ozone standards, including 54 percent of Republicans.
    We will also discuss three bills today that would have 
negative impacts on our air quality and public health. These 
bills would delay the health protections of the ozone 
standards, block implementation of an ozone standard 
altogether, or create new loopholes for how air pollution data 
is assessed.
    I will continue to work with my colleagues to fight any 
efforts to undermine our environmental laws that protect the 
most vulnerable populations. No one's health should be 
threatened by the air they breathe, especially our children's.
    I would like to extend a special welcome to one of today's 
witnesses, Larry Greene, the Executive Director of the 
Sacramento Air Quality Management District. California is on 
the front lines in the battle against air pollution, and he 
will testify about the tremendous successes our State has had 
in implementing new air pollution standards.
    For example, in 1976, there were 166 days when health 
advisories were issued in Southern California to urge people 
with asthma and other people with lung sensitivities to stay 
indoors. In 37 years, the number of smog-related health 
advisories issued in Southern California dropped from 166 days 
in 1976 to 1 day in 2013. And in March of this year, a peer-
reviewed study by researchers at the University of Southern 
California found that reducing air pollution leads to improved 
lung development and respiratory function in school-aged 
children.
    Environmental safeguards have improved our quality of life 
and made our children safer and healthier, and we need to 
continue down this path. I look forward to hearing the 
testimony of today's witnesses.

    Senator Inhofe. Thank you, Senator Boxer.
    As we stated earlier, as they come in, the sponsors of the 
legislation will be heard to explain. Maybe they disagree with 
Senator Boxer as to the purpose of your legislation and if so, 
feel free to say so.
    I will recognize you, Mr. Olson. Thank you for coming 
across the campus.

 STATEMENT OF HON. PETE G. OLSON, U.S. REPRESENTATIVE FROM THE 
                         STATE OF TEXAS

    Representative Olson. Thank you, Chairman Inhofe, Ranking 
Member Boxer and committee members for allowing me to speak to 
you this morning.
    I have worked on Capitol Hill, this side, for 10 years, two 
on active duty in the Navy, four for Senator Phil Gramm, and 
four as John Cornyn's first Chief of Staff. I know your time is 
precious. I will be very brief.
    I will describe the bills I have introduced about ozone 
with support from your fellow colleagues here in the Senate.
    My hometown of Houston, Texas has a great story to tell 
about ozone. When I moved there in 1972, we had the highest 
ozone levels in America. Hard work and lots of money have put 
us on track to be in full attainment for ozone in the next few 
years. We have driven down the field and are about to kick the 
field goal to win, but EPA is moving the goal posts.
    Nature produces ozone, so levels can only go so low. Much 
of the factors adding to our ozone are out of our control. We 
have ozone coming from China or annual crop burnings in Mexico.
    EPA calls ozone we cannot control ``background ozone.'' 
They admit that half of the ozone in America is beyond our 
control. Yet, EPA's new proposed standard for ozone is 
approaching background levels.
    Many parts of our Country, farms and ranches, have very 
little ozone they can control. EPA tells them the tools needed 
to comply are, again, ``unknown.'' Healthy air and healthy 
water are priority one.
    Impossible rules help no one and they can hurt. The Texas 
manufacturing sector employed 875,000 and generated over $200 
billion in GDP a few years ago. The proposed new ozone 
standards will stop growth and jobs will be lost. This will not 
be limited to Houston. The whole Nation will feel the pain.
    That is why I teamed up with Republican conference 
chairman, John Thune, to introduce the CASE Act, the Clean Air, 
Strong Economies Act. The CASE Act simply requires EPA to 
determine the impact of new clean air standards on the economy 
and jobs. It also allows States to achieve current standards 
before changes are made.
    The other bill I want to discuss is the CLEER Act, the 
Commonsense Legislative Exceptional Events Reform Act.
    Jeff Flake has introduced the same bill here in the Senate. 
As ozone standards are lowered, spikes and emissions beyond our 
control can push an area out of attainment. My home State has 
been waiting for 4 years for EPA to respond to a request for 
the massive fires near Bastrop in 2011.
    EPA has admitted the Exceptional Events Rule needs reform. 
The CLEER Act is a step in that direction.
    Thank you for your time and your consideration.
    Senator Inhofe. Thank you very much.
    I know that Senator Thune will be here to talk about the 
same legislation. Are you handling both legislations from 
Senator Thune and Senator Flake on the House side?
    Representative Olson. Yes, sir.
    Senator Inhofe. It is very nice to have you here.
    Senator Flake.

           OPENING STATEMENT OF HON. JEFF L. FLAKE, 
             U.S. SENATOR FROM THE STATE OF ARIZONA

    Senator Flake. Thank you, Mr. Chairman, Ranking Minority 
Member and all the members. Thank you for allowing me to come 
here and talk about the CLEER Act and the ORDEAL Act.
    As Pete mentioned, with the CLEER Act, we are looking to 
simply bring some commonsense to the EPA's approach.
    My family has been in Arizona since 1878 when it was a 
territory. The dust storms we are talking about rolled through 
the territory at that time, they do today and will long after 
my family is gone.
    Senator Inhofe. And go straight from there to Oklahoma.
    Senator Flake. That is right. It is much like tornadoes in 
the Midwest or elsewhere or hurricanes. It is simply a natural 
event. The problem is the EPA simply will not treat it as such.
    The CLEER Act will simply ease the regulatory burden of 
States, including arid States like Arizona, from these 
exceptional events.
    When these dust storms occur, they cause a spike in the 
particulate level and this blip will have a dramatic regulatory 
impact on the States. They will be found in noncompliance, even 
though, as I mentioned, it is no fault of their own. Due to 
Federal air quality standard regulations, it leads to penalties 
like loss of Federal transportation dollars.
    Faced with repercussions they did nothing to cause, States 
dedicate vast amounts of manpower, countless work hours, and 
considerable financial resources to reviewing these events 
that, as I mentioned, they do not control.
    For example, the Arizona Department of Environmental 
Quality, the Maricopa County Air Quality Department, and the 
Maricopa Association of Governments in 2011 and 2012, spent 
about $675,000 and 790 staff hours to prove that the spike in 
PM 10 levels was caused by a dust storm and not by pollution. 
Again, they spent $675,000 and 790 staff hours just to say it 
was a dust storm.
    Historically, EPA's reviews under this exceptional event 
rule have been arbitrary, cumbersome and costly. They have 
lacked an appeals process. We are simply saying let us 
introduce a little common sense. The CLEER Act would simply 
require a rulemaking and that decisions on such events be based 
on the preponderance of evidence. It would accord deference to 
the State's own findings of such when such an event happened.
    It would also require the EPA to review States' exceptional 
events documentation within a reasonable time period. As Pete 
mentioned, you wait and wait and wait for the EPA to actually 
review this. They drag it out and as I mentioned, there is no 
appeals process.
    As if being wrapped around this regulatory axle is not 
enough, Arizona will soon face the already stringent air 
quality standard for ozone. That is why I have introduced the 
ORDEAL Act.
    When the EPA reduced ozone standards in 2008, as we know, 
counties across the Country that were in nonattainment were 
forced to enact further expensive and complicated compliance 
plans. Now relying on what I think we all can accept are some 
dubious scientific bases, the EPA has proposed lowering the 
ozone emissions standards even more to 65 ppb while accepting 
comments, as mentioned, to lower it even further to 60 ppb.
    By some estimates, as I am certain the committee is aware, 
the proposal of the lower ozone level may be the most expensive 
regulation in history, as the Chairman mentioned, costing as 
much as $1.7 trillion. Lowering ozone standards from 75 ppb to 
65 ppb would cost a whopping $140 billion annually.
    EPA's own science advisors disagree on the very basis of 
this regulation. Simply put, the lowering of the ozone standard 
is unnecessary. U.S. air quality has been improving for the 
past three decades. Since 2000, air quality has improved by 18 
percent due to lower ozone levels.
    We all recognize, as Pete said, we would love to have lower 
ozone levels. A lot of that is natural and occurs naturally. We 
all accept that you could not lower it to 45 ppb. That would be 
just unreasonable. There are some standards that are reasonable 
and some standards that are not.
    It is not that we all do not want the same goal of cleaner 
air. We just have to figure out what that standard is.
    As mentioned, there is a 5-year review process. The ORDEAL 
Act would give States flexibility and time to implement their 
own innovative and proactive measures. The bill, most 
importantly, would extend all air quality standards review, 
including ozone, to a 10-year timetable instead of the current 
5-year period. That would give a little leeway and allow States 
and all of us to breathe a little easier.
    Thank you for your time.
    Senator Inhofe. Thank you, Senator Flake.
    Senator Thune, before you came in, we commented that 
Congressman Olson is introducing similar legislation to all 
three pieces we are hearing today. You are recognized to 
explain yours.

             OPENING STATEMENT OF HON. JOHN THUNE, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Thune. Good morning. Thank you, Mr. Chairman Inhofe 
and Ranking Member Boxer for giving me the opportunity to speak 
in front of the committee this morning.
    I want to thank all the members for the chance to talk 
about a bill I have introduced called the CASE Act. It is a 
bipartisan bill introduced with Senator Manchin that would 
prevent the staggering blow that a lower ozone standard would 
deliver to the economy at a time when many of our industries 
are seeking to turn the corner.
    After an area is deemed in nonattainment with the smog 
standard, communities face stiff Federal penalties, increased 
business costs, restrictions on infrastructure investment and 
lost highway dollars.
    When businesses are restrained by regulatory overreach, 
they cannot expand, jobs are put at risk and innovation is 
stifled. Areas in nonattainment or even those in marginal 
attainment will face steep challenges in promoting economic 
development or attracting new businesses.
    In fact, it was for these exact reasons, regulatory burdens 
and regulatory uncertainty, that the Obama administration 
withdrew a similar proposal in 2011. The cost of a lower smog 
standard has hardly lessened and the hit this could have on 
manufacturing and other economic sectors nationwide would be 
unprecedented.
    The bipartisan CASE Act strikes a balance between economic 
growth and environmental progress by requiring the EPA to first 
focus on the most polluted areas that are in nonattainment with 
the current standard before it can implement a lower one.
    We have made great progress in cleaning up our air and 
pollution levels are at an all time low. However, 40 percent of 
Americans live in the 227 counties that have not yet met the 75 
ppb standard set in 2008. The CASE Act would require 85 percent 
of these counties to achieve compliance with the existing 75 
ppb standard before the EPA can impose a stricter regulation 
like the one proposed in November.
    The EPA needs to focus its efforts on areas already 
struggling with attainment where smog remains a consistent 
problem. We should first tackle smog where it is the worst, in 
places like Los Angeles and not go after regions like the Great 
Plains where there clearly is not a smog problem.
    The EPA contends that a lower standard will benefit public 
health, yet most of these benefits will come from reductions of 
other criteria pollutants like particulate matter which are 
already subject to their own regulations.
    Moreover, the EPA would be well served to acknowledge that 
it has not yet sufficiently implemented the existing 2008 
standard and prioritized its efforts to combat smog in the most 
polluted areas.
    The CASE Act would also require the EPA to consider the 
cost and feasibility of a lower standard which it currently 
does not consider. At a standard of 65 ppb, approximately 75 
percent of the projected costs are attributed to unknown 
controls or technologies and emission reduction strategies that 
have yet to be developed. Hinging a regulation of this 
magnitude on unknown controls could hamper economic growth with 
staggering costs for years to come.
    I want to thank you for the opportunity to come before this 
committee and introduce the CASE Act today. I hope you will 
agree that this bipartisan bill is a reasonable way forward to 
prioritize smog in the most polluted areas while not imposing 
undue costs on the American economy and work force.
    Mr. Chairman, I appreciate the opportunity to present this 
legislation and encourage its consideration.
    Thank you.
    Senator Inhofe. Thank you, Senator Thune. I thank all three 
of you.
    You are certainly welcome to stay but we will excuse you 
now. We will now be hearing from witnesses.
    In my opening statement before you came in, Senator Thune, 
I pointed out that Oklahoma is in a situation where we are in 
total compliance today but with the passage of this, all 77 
counties would be out of attainment.
    Senator Boxer. Mr. Chairman, if I could just thank the 
colleagues before you leave. I just wanted to make a point.
    You were very eloquent about you do not want to pay the 
price for pollution that comes from elsewhere. There is a whole 
set of exceptional event rules that the EPA has which they are 
updating. I hope you will take a look at it because that might 
satisfy you. You make a very important point.
    They say ``They have ways to exclude the impacts of other 
pollution.'' I just wanted you to know that.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Boxer. Thank you.
    Senator Inhofe. We would ask all the witnesses to come to 
the table.
    Mr. Kanathur ``Kanti'' Srikanth is Director, National 
Capital Region Transportation Planning Board, Metropolitan 
Washington Council of Governments. Michael McKee is Chairman of 
the Uinta County Commission. The Honorable Gary Moore is Judge/
Executive, Boone County, Kentucky and President, National 
Association of Regional Councils. Gregory B. Diette, MD, MHS, 
is Professor of Medicine, Epidemiology and Environmental Health 
Science, Johns Hopkins University. Larry Greene is Executive 
Director, Sacramento Metropolitan Air Quality Management 
District. It is nice to have all five of you here.
    We will go ahead and start. We do have a request from one 
of our members who happens to be the leader of the Senate who 
wants to participate in the introduction of one of you. We will 
stop when he comes in.
    We will recognize you now, Mr. McKee.

 STATEMENT OF MICHAEL McKEE, CHAIRMAN, UINTA COUNTY COMMISSION

    Mr. McKee. Mr. Chairman, and members of the Committee, I am 
Michael McKee and I serve as the Chairman of the Uinta County 
Commission located within the Uinta Basin in eastern Utah.
    I am honored to testify before the Committee today to 
discuss the issues we face in controlling ozone levels in the 
Uinta Basin, especially the unique occurrence of high winter 
ozone levels.
    Only two places in the Nation experience high levels of 
winter ozone: the upper Green River Basin in Wyoming and the 
Uinta Basin in Utah. High winter ozone levels are a result of a 
complex mix of geographic, meteorological, and emission 
conditions.
    Primarily, winter ozone levels rise when snow cover and 
multi-day temperature inversions occur. An inversion is what 
occurs when high level warmer air traps low level cold air 
inside the Basin. Snow reflects the sunlight back up to the 
cloud cover and this becomes the perfect mix to allow 
pollutants close to the surface to build and react to produce 
ozone. In the absence of these conditions, exceedances of EPA's 
ozone standard have not been observed.
    Although it is clear that our oil and gas industry 
contributes to ozone precursors through the release of 
NO<INF>x</INF>, VOC and formaldehyde, those same releases do 
not create high levels of ozone absent precise weather 
conditions.
    The county, the State of Utah, the Ute Tribe and industry 
have spent several years and millions of dollars to study, 
monitor, and model winter ozone. After all of this work, what 
we know for sure is that we need several more years of 
scientific research and monitoring to ensure that investments 
we make are effective and that we have a precise model in order 
to formulate an appropriate regulatory structure.
    We are currently under the threat of nonattainment under 
current EPA ozone standards. However, not the State, the EPA, 
nor the county understand what measures would be effective to 
reduce elevated winter ozone episodes.
    Even if EPA were to force the Uinta Basin into 
nonattainment, absent several additional years of scientific 
studies, monitoring, and modeling, a State implementation plan 
would unlikely be effective, yet would devastate our economy by 
implementing a regulatory scheme at great cost to industry and 
perhaps with few results.
    The proposed lowering of the ground level ozone standard 
would of course make our situation nearly impossible to avoid 
nonattainment status, yet would do nothing to improve our air 
quality.
    The Clean Air Act simply does not contemplate the 
multifaceted nature of winter ozone nor does it provide the 
necessary tools to deal with the issue.
    Uinta County wants to improve our air quality. That is not 
a debate. Our oil and gas industry is willing to make major 
investments to reduce emissions controls but will only do so if 
these investments are recognized and credited by EPA.
    In the case of the Uinta Basin, we need more scientific 
resources dedicated toward the problem and we need flexibility 
to implement regulatory actions to determine the most effective 
controls to improve our air quality.
    The oil and gas industry is responsible for 60 percent of 
our economy and 50 percent of our jobs. We need this industry 
to stay in the Uinta Basin to feed our economy and provide the 
resources necessary to tackle our ozone problems. Under non-
attainment, the industry and their investment will simply 
relocate to other areas if not to other countries.
    Mitigating winter ozone requires new authorities and 
opportunities for collaboration between State, tribal and local 
governments.
    A lower ozone standard does not improve our air quality. It 
simply ties our hands and prevents Uinta County and areas from 
the west where we have high elevations opportunities to find 
creative solutions.
    I would ask the committee to explore new authorities and 
look to successful efforts that have actually improved air 
quality. I would draw the committee's attention to the Early 
Action Compact process that the EPA implemented in early 2000 
and was very successful but litigation forced the agency to 
withdraw the program.
    The Early Action Compact program allowed several 
communities to comply with ozone standards in a very short 
time. The program allowed communities and States to enter into 
agreements with the EPA to implement actions in a creative 
fashion that proved to be very effective and the majority of 
communities that participated in the program were able to lower 
ozone levels to within the Federal standard.
    The program required the achievement of milestones, 
reporting to the EPA, completion of emissions inventories, 
modeling, and control strategies. Flexibility is a key 
component to allow communities to implement solutions to air 
quality issues that are unique to their area.
    We believe that an authority similar to the Early Action 
Compact program with provisions that contemplate the 
complexities of winter ozone is an appropriate mechanism for 
communities to improve its air quality without destroying its 
economy.
    We all want to improve our air quality. A lower ozone 
standard does not achieve that goal. It actually makes it more 
difficult to achieve. We oppose increasing ozone restrictions 
and standards and request the committee to explore new tools in 
our efforts to improve our air quality. We look forward to 
working with the Committee toward that end.
    I thank you for the opportunity to testify today and thank 
you for this opportunity. I would be happy to answer any 
questions or provide additional information.
    [The prepared statement of Mr. McKee follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Inhofe. Thank you, Mr. McKee.
    I think I failed to say we are going to try to stay within 
our 5-minute limit. Your entire statement will be made a part 
of the record.
    Mr. Srikanth.

      STATEMENT OF KANATHUR ``KANTI'' SRIKANTH, DIRECTOR, 
TRANSPORTATION PLANNING BOARD, METROPOLITAN WASHINGTON COUNCIL 
 OF GOVERNMENTS, ON BEHALF OF THE ASSOCIATION OF METROPOLITAN 
                     PLANNING ORGANIZATIONS

    Mr. Srikanth. Good afternoon, Mr. Chairman.
    I want to thank Chairman Inhofe and Ranking Member Boxer 
for this opportunity to provide testimony.
    I am testifying today on behalf of the Association of 
Metropolitan Planning Organizations. I would like to submit my 
entire testimony for the record.
    I am here to present a practitioner's perspective on the 
implications of changes to the existing ozone standards and the 
potential issues for transportation planning and programming in 
metropolitan areas.
    I have no position on where the standards should be set. 
Wherever it is set, the MPOs in the Country will have to comply 
with it and my MPO, I am sure, will comply with it.
    I am the staff director of the National Capital 
Transportation Planning Board which is the metropolitan 
planning organization, called MPOs, for the Washington, DC 
region.
    As you know, MPOs are required to develop transportation 
plans and programs for metropolitan areas as a condition of 
receiving Federal transportation funds. If an MPO is located in 
an area that has been designated as nonattainment of EPA's air 
quality standards, the MPOs are also required to do something 
called transportation conformity analysis in order to receive 
transportation funds from the feds.
    I would like to note that my MPO has not taken an official 
position on the range of the proposed ozone standards.
    Senator Inhofe. I am going to ask, if you do not mind, as I 
mentioned earlier, if you would hesitate for a moment and allow 
Senator McConnell to introduce our guest from Kentucky. Would 
that be all right?
    Mr. Srikanth. I would be pleased to.
    Senator Inhofe. Thank you.
    Senator McConnell.
    Senator McConnell. Thank you, Mr. Chairman.
    I am sorry to interrupt your comments. I appreciate 
Chairman Inhofe giving me a chance to come by and introduce a 
friend of many years, a very important public servant in our 
State, Judge Gary Moore. Gary, I do not know if you have 
already testified or not.
    Judge Moore is the current Judge/Executive of Boone County. 
In our State, that is like the CEO of the county, like the 
County Executive they have in Maryland. He was first elected in 
1998. In his time as a public servant, he has achieved much 
success on behalf of the people of Boone County through the 
application of consistent, conservative policies.
    Judge Moore was raised in Pendleton County where his father 
served as sheriff. Years of watching his father enforce the law 
and serve the people of his county instilled in Gary a 
commitment to public service and community involvement.
    In addition to serving as the Boone County Judge, he is the 
current President of the National Association of Regional 
Councils and serves in the leadership of the National 
Association of Counties.
    Judge Moore is here today to discuss the possibility that 
EPA may lower the national ambient air quality standards for 
ground level ozone.
    The National Association of Manufacturers issued a report 
stating this regulation could be the costliest in U.S. history. 
This regulation would have a serious, detrimental effect on 
jobs, electricity prices and could have the most devastating 
impact yet on Kentucky coal jobs.
    For these reasons, I am proud to support my colleague, 
Senator Thune, in his efforts to stop this regulation by co-
sponsoring the Clean Air Strong Economies Act.
    Judge Moore is uniquely qualified to speak on these matters 
given his leadership roles in both the National Association of 
Regional Councils and the National Association of Counties. He 
has a broad perspective on how this proposed rule would affect 
not just Boone County but counties across the Nation, rural, 
suburban and urban.
    He will be able to give a real world perspective on what 
this proposed rule will mean to folks across the Country who 
have to deal with the consequences.
    I am pleased that my friend, Judge Moore, is here today to 
share his timely thoughts on this rule.
    Mr. Chairman, I really appreciate the opportunity to come 
by and say a few words about my friend of longstanding. I am 
sure he will make a positive contribution to your session 
today.
    Thank you.
    Senator Inhofe. I am sure he will.
    Thank you very much, Senator McConnell.
    Mr. Srikanth, you may continue and take a little extra 
time. I apologize for the interruption but I told you that was 
going to happen.
    Mr. Srikanth. My pleasure. No problem. Thank you.
    As I was saying, my MPO has not taken a position on the 
proposed range of standards for ozone. The Metropolitan 
Washington Air Quality Committee, the regional air quality 
planning committee for this area set up under the Clean Air 
Act, has taken a position.
    Its position is that the committee supports the range of 
proposed ozone standards between the 65 ppb and 70 ppb as being 
more protective of human health and the environment. The 
committee also notes that the standard will pose a fresh 
challenge to the metropolitan Washington region and believes 
that it is imperative that the EPA help States and local 
governments meet the new standards by providing assistance and 
adopting national rules as part of a national strategy to 
address air pollution.
    A new ozone standard lower than the current level for this 
region will mean this region will not be in attainment of the 
new standard. According to the most recent 3-year average 
measurements in the region, most of the region's monitors will 
be exceeding the standards proposed by the EPA.
    These readings also indicate that the metropolitan 
Washington area would need to reduce significant amounts of 
ozone precursors to comply with the new standards. The 
transportation sector will certainly have to do its part in 
achieving these reductions.
    My MPO has been conducting transportation air quality 
conformity analyses since the Clean Air Act amendments of 1990. 
It is currently classified as marginal, nonattainment of the 
EPA's 2008 ozone standards which is set at 75 ppb.
    The MPO also annually spends something in the range of $6 
million to implement a host of programs explicitly designed to 
reduce emissions in this region. As a planning exercise, the 
MPO sets aside 15 percent of its annual budget to conduct the 
air quality conformity analysis.
    The National Capital Region has significantly reduced 
emissions over the years. It has attained all of the previous 
ozone standards and it is on track to attain the 2008 ozone 
standards within a year or so.
    This has really been made possible due to a number of 
Federal control programs supplemented by local land use and 
transportation investments. These are outlined in my testimony.
    The critical thing here is without Federal control 
programs, the region would have had a difficult time attaining 
those standards. We are very thankful for that.
    With all of the actions this region has taken, current 
analyses show that while the emissions will continue to reduce 
into the future, beyond 2025, transportation emissions are 
going to remain steady.
    The Federal assistance will be very critical, especially in 
this region which does experience significant amounts of 
transport ozone coming into this region. The Federal assistance 
should encompass control programs that address the transport in 
a timely manner.
    I would also note the Federal assistance should provide 
some certainty that the timely realization of emission 
reductions from other EPA programs is made available to regions 
such as ours.
    Additionally, the effects of Federal involvement can help 
by harmonizing and simplifying some of the conformity 
regulations within the existing law. As always, increased 
transportation funding to help projects that help reduce 
emissions is always welcome and needed.
    In conclusion, I believe the examination of current ozone 
standards is needed from the public health perspective. Federal 
assistance to States, localities and metropolitan areas to help 
attain the standards is also needed.
    I thank you for your time and the opportunity to speak 
before this committee. I will be happy to answer questions at 
the appropriate time.
    [The prepared statement of Mr. Srikanth follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
        
    Senator Inhofe. Thank you, Mr. Srikanth.
    Mr. Moore.

 STATEMENT OF HON. GARY MOORE, JUDGE/EXECUTIVE, BOONE COUNTY, 
   KENTUCKY, AND PRESIDENT, NATIONAL ASSOCIATION OF REGIONAL 
                            COUNCILS

    Judge Moore. Thank you, Chairman Inhofe and Ranking Member 
Boxer, and all the members of this committee, for the 
opportunity to testify on the impacts of more stringent ozone 
standards.
    I would also like to thank Leader McConnell. What a 
pleasant surprise. I was not expecting that.
    I am Gary Moore, the elected Judge/Executive of Boone 
County, Kentucky and here today representing the National 
Association of Regional Councils and the National Association 
of Counties.
    Boone County is a suburban county in the Cincinnati 
metropolitan region. Throughout my region, I hear concerns 
about the impact of tighter ozone standards and the effect they 
would have on local governments' ambient economy. Similar 
concerns have been echoed nationally by regions and counties of 
all sizes.
    My region is currently classified in marginal nonattainment 
but we would be in full nonattainment and face additional 
requirements under the proposed rule. Nonattainment 
designations impact the economic vitality of local governments, 
regions and the Nation.
    Areas across the Nation face significant challenges under 
the current ozone standard. NARC and NACo, along with the U.S. 
Conference of Mayors and the National League of Cities, have 
requested that EPA fully implement the current ozone standard 
before issuing a new, more stringent standard.
    Today, I will discuss several on-the-ground impacts of more 
stringent ozone standards on regions and counties nationwide.
    First, local and regional governments play a significant 
role in protecting local air resources, ensuring a strong 
transportation system and strengthening the local economic 
development efforts.
    Counties and local governments own a large portion of the 
Nation's public road system. My county alone owns more than 400 
public road miles. Many transportation projects would have to 
be reconsidered if the ozone standard was tightened.
    Additionally, areas designated as nonattainment can have a 
more difficult time in attracting and keeping industries due to 
the concerns that their permits and other approvals will be too 
expensive and even impossible to obtain.
    Second, a more stringent ozone standard would create 
unfunded mandates for State and local governments. EPA 
estimates that hundreds of counties would be impacted by the 
new ozone standard.
    A more stringent standard would be especially difficult for 
rural countries and small metropolitan areas, many of which 
have not previously been subject to nonattainment designations. 
Very limited Federal funding is available to help these regions 
and counties comply with air quality standards.
    Additionally, the Federal Government can withhold Federal 
highway funds for projects and plans in nonattainment areas 
which would negatively impact job creation and economic 
development for these impacted regions.
    In 2008, EPA issued the existing 75 ppb ozone standard. In 
2010, a more stringent standard was proposed but EPA later 
withdrew it over concerns about resulting regulatory burdens 
and uncertainty.
    During this period, however, implementation of the 2008 
standard was effectively halted. That process was recently 
restarted. In February of this year, a few months ago, my 
county received the implementation guidelines for the 2008 
standard. Now here we are again discussing a new standard 
before we know whether the current standard is working.
    This process has created confusion in regions and counties 
and about where they stand under the current standard which is 
crucial to gauging the effects of an even more stringent 
standard.
    Due to 2014 court decisions, two separate ozone standards 
must be met as part of the transportation conformity process. A 
stricter ozone standard will only complicate matters further.
    In conclusion, the health and well being of our residents 
is a top priority for regions and counties. We urge that EPA 
fully implement the current ozone standard before issuing a 
new, more stringent standard.
    We look forward to working with members of this committee 
and the EPA to craft policies and protect public health without 
inhibiting the economic vitality of our communities.
    Thank you again for the opportunity. I am pleased to 
address any questions you might have.
    [The prepared statement of Judge Moore follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Inhofe. Thank you, Mr. Moore, for that excellent 
statement.
    Dr. Diette.

STATEMENT OF GREGORY B. DIETTE, MD, MHS, PROFESSOR OF MEDICINE, 
 EPIDEMIOLOGY AND ENVIRONMENTAL HEALTH SCIENCE, JOHNS HOPKINS 
                           UNIVERSITY

    Dr. Diette. Thank you, Mr. Chairman, Ranking Member and 
members of the committee for inviting me here. I appreciate the 
time to talk to you.
    My name is Dr. Gregory Diette. I am a practicing pulmonary 
or lung doctor at Johns Hopkins University in Baltimore, 
Maryland. To put it simply, my job is to take care of very sick 
people with lung diseases including things like asthma, COPD 
and other lung diseases.
    You have my written testimony before you and I just wanted 
to make a few more points with the time that I have.
    First of all, ozone pollution is very bad for the lungs. I 
think it is pretty obvious to most people but I think it is 
worth repeating. It is a very potent oxidant and when you 
inhale it, it irritates the lungs and causes people to have 
symptoms.
    There are multiple research studies throughout the United 
States and the globe that have shown this. They provide a 
coherent story about what happens when people inhale ozone.
    When you get sick from inhaling ozone, there is a range of 
things that can happen. One can be as simple as having to take 
more of the medication you are already taking.
    In some cases, it means going to the doctor to have an 
adjustment and in some cases, to the emergency department of 
the hospital or the ICU. Worse than that, you can die from it. 
These are very serious issues in terms of the problems people 
have.
    Second, something I think gets lost sometimes, because we 
are talking about vulnerable people, is ozone is bad for normal 
people too. Normal, healthy people are affected by ozone. If a 
healthy adult inhales ozone, it affects their lung function and 
causes inflammation in the lungs. If we have time, I will 
elaborate on why that is so important.
    Another issue is that ozone is ozone, so the person who 
inhales it does not care whether it came from their city, the 
nearby county or another State. It is still ozone and it is 
still irritating.
    Another point I wanted to make was about public health. I 
think public health is a concept that sometimes seems like a 
high level concept and things get lost in translation. Public 
health is really a collection of stories about individuals who 
live in America and what their individual story is and how it 
contributes to the health issue.
    If you think about what happens to someone as an 
individual, a mother of a child in an emergency room wonders if 
her child is going to survive that asthma attack, wonders if 
they are going to be discharged from the hospital and wonders 
whether or not she can afford to take off one more day from 
work in order to take care of her child, when and if he is 
discharged to go home.
    The issue about the symptoms, somebody talks about 
something like an asthma attack, can seem very abstract, here 
is what it sounds like when somebody describes it. They say, it 
feels like there is an elephant on my chest, I cannot breathe, 
I am panicked, I feel like I am going to die. That is the 
experience people have. It is not subtle; it is very scary.
    The last thing I want to address is the state of the 
science. I think it is very strong and very compelling. It was 
compelling in the Bush administration when the EPA looked at 
the ozone standard and proposed a standard of 60 ppb. The 
evidence was supportive of that standard. It has only gotten 
stronger since 2006 to now.
    We have additional information about the adverse effects of 
ozone on human health. These come from a variety of types of 
studies, not just one type of study. The EPA has available to 
it not one study, not ten studies but literally hundreds of 
studies performed around the United States and the globe to 
support this idea.
    In particular, these studies include necronistic studies, 
animal studies, toxicology studies, epidemiology studies, 
natural experiment studies, met-analyses and others.
    I think the evidence is sufficient to say the EPA can and 
must strengthen the standard for the sake of human health.
    Thank you very much. I look forward to answering any 
questions you might have.
    [The prepared statement of Dr. Diette follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Dr. Diette.
    Mr. Greene.

   STATEMENT OF LARRY GREENE, EXECUTIVE DIRECTOR, SACRAMENTO 
          METROPOLITAN AIR QUALITY MANAGEMENT DISTRICT

    Mr. Greene. Good morning, Chairman Inhofe, Ranking Member 
Boxer, and members of the committee.
    My name is Larry Greene, and I am the Executive Director of 
the Sacramento Metropolitan Air Quality Management District. 
Thank you for the opportunity to appear here today.
    As a military officer for over 20 years, and now as an Air 
Quality Director for a similar period, I have always taken 
seriously my responsibilities to protect public interests, 
formerly through a national security lens, and currently from a 
public health perspective.
    It is with this background that I would like to provide the 
committee with comments related to our Sacramento experience 
with the Federal Clean Air Act.
    In California, meeting the requirements of the Federal 
Clean Air Act has clearly been difficult. California's 
geography and weather patterns provide optimal conditions for 
the formation of summer ozone and winter particulate pollution. 
Whatever the contributing factors, Federal designations are 
based on real public health threats from dangerous levels of 
air pollution.
    One of the pillars of the CAA is the establishment of the 
National Ambient Air Quality Standards, which must be supported 
by sound science and set at levels that protect public health 
with an adequate margin of safety and without consideration of 
cost or other implementation issues.
    The CAA provides for this by establishing the Clean Air 
Scientific Advisory Committee and mandating a review and 
revision, only if deemed necessary, of each NAAQS every 5 years 
to ensure the standards remain protective of health.
    Based on years of direct experience seeing the public 
health benefits of the Act, we support the Clean Air Act 
measures. These core principles ensure that public safety is 
the first filter through which air quality initiatives are 
measured.
    At the same time, we are certainly cognizant of the 
potential costs of regulatory compliance borne by our local 
business community. For that reason, we closely evaluate the 
provisions of EPA implementation rules and guidance documents, 
provide optimizing comments and have worked hard locally on a 
range of measures to mitigate and moderate the cost of 
regulation.
    A key measure in reducing monitored ozone and particulate 
pollution levels has been incentivizing early adoption of 
cleaner on and off-road equipment. Since 1998, we have provided 
over $230 million of State and local funds to businesses in the 
Sacramento region for purchasing clean equipment in advance of 
regulatory deadlines.
    We also collaborate with a range of regional partners, 
including our metropolitan transportation agency to enhance 
public transportation alternatives. Other programs help schools 
purchase cleaner vehicles.
    For Sacramento, the result tells the story, and it is a 
positive one. We have attained the original 1994 1-hour ozone 
standard. We are on track to attain the 1997, 85 ppb standard 
by the mandated 2017 attainment date.
    With continuing support from State and Federal programs, we 
anticipate we will submit a State Implementation Plan, or SIP, 
next year that will demonstrate attainment of the 2008, 75 ppb 
standard by the target year of 2027. If EPA takes final action 
to tighten the 75 ppb standard in October, we anticipate that, 
as with other standards, we will be successful in meeting this 
public health goal.
    The key message is that meeting NAAQS targets takes 
committed partnership between local, State and Federal 
agencies. Along those lines, I would like to make a few 
observations about a new ozone standard, at whatever level it 
is set.
    First, it is important that EPA follow the science and 
tighten the standards to within a range set by its independent 
science advisors. Second, the progress we are making to comply 
with the current 75 ppb standard will bring us that much closer 
to achieving any new and tighter standard.
    Third, the co-benefits from reducing greenhouse gases can 
help reduce smog forming emissions and other air pollutants. We 
already see this occurring in California.
    Fourth, there are a number of sources for which Federal 
controls are the most efficient, cost effect and at times, the 
only avenue available. It is essential that the Federal 
Government continue to support effective programs for reducing 
emissions from sources under Federal responsibility.
    Finally, if Congress wishes to contribute to our success in 
achieving clean air and public health goals, we urge you to 
increase Federal funding to State and local air agencies to 
support our work and a wide range of areas related to air 
quality regulations.
    With that, I thank you for inviting me to testify on this 
critically important issue. I am happy to answer your 
questions.
    [The prepared statement of Mr. Greene follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Mr. Greene. Thank all of you for 
your excellent statements.
    We will be having a round of 5 minutes in the order that 
our members have arrived, starting with myself and Senator 
Boxer.
    Judge Moore, you heard testimony from Mr. Greene talking 
about not just the ozone but also CO<INF>2</INF> and other 
emissions. Your Governor is a fine person, I know him, and he 
is committed to CO<INF>2</INF> reductions by 2050.
    My observation was that at that time he will be 110 years 
old, so it is pretty easy to make those commitments. However, I 
appreciate very much that he has made this commitment and 
concern and sent this letter to the President of which you are 
aware.
    Gina McCarthy wrote, in a CNN op-ed which I suspect you 
probably saw, ``The agency's air standards will help 
communities attract new business, new investment and new 
jobs.'' Is this your experience in the State of Kentucky?
    Judge Moore. We have seen amazing economic growth and job 
creation in our county. We believe that can best be done by 
letting the private sector do what it does best. That is to 
create jobs. We try to keep regulations and requirements off 
them that might get in the way.
    Our Governor has been a great partner with us. We were just 
recognized as the No. 1 State per capita in new job creation 
last year at a recent conference. Our Governor came back home 
and talked about that.
    We work in a bipartisan way to create jobs, build our 
transportation system, but do that in a responsible way. We 
were in nonattainment but now we are in moderate attainment. We 
have done that through good planning.
    We have doubled in population in our county since 1990. We 
have seen new homes, new residential, but also new commercial 
and industrial development. By planning wisely, protecting our 
environment and doing that in a way that incorporates 
multimodal opportunities, more mass transit, bike lanes, 
pedestrian capacities, we can do that.
    To answer your question, these regulations can get in the 
way of job creation and economic vitality. We feel we are doing 
quite well in making improvements.
    Senator Inhofe. I know you are doing a good job. That was 
not my question. My question was what these new standards are 
going to be doing.
    I was in the private sector for 20 years. I know what it is 
like to receive the edicts that come from Washington. That is 
why we are having hearings like this with people who at home 
are having to carry out these things.
    Your successes are admirable and I appreciate that. If you 
are looking down the road and having to come up with these new 
requirements, is that going to create new jobs?
    Judge Moore. No, that would get in the way of new jobs, to 
answer your question.
    Senator Inhofe. Mr. Srikanth, what about your situation? Do 
you think that would have the effect, as stated, of attracting 
new business, new investment and new jobs?
    Mr. Srikanth. My own experience and expertise falls short 
of economic development in this region. From a technician's 
perspective, I can say this region has seen significant growth 
and economic development. It is forecast to grow a lot more.
    Federal help and assistance will certainly be critical to 
complement and accommodate the future growth. The 
accomplishments of the past alone will not be sufficient to 
carry us into the future. The future-needed emission reductions 
will certainly have to have Federal assistance in achieving 
them.
    Senator Inhofe. Do you think with the new standards, there 
would be a disruption of Federal funds, significant cost 
increases, and new prohibitions on much needed capacity 
projects? In other words, you will continue to have good 
successes. Would this be because of or in spite of the new 
standards?
    Mr. Srikanth. My testimony alluded to one of the things 
with clean air standards of any pollutant, ozone, particulate 
matter or others, is transportation has to do its part and do 
the air quality conformity analysis. If it is not done, then 
Federal transportation funding could be impacted. For areas 
which will have problems demonstrating attainment, that could 
impact the timely availability of Federal funding.
    Senator Inhofe. Mr. McKee, there was talk in all five of 
the opening statements about the natural conditions in the 
States that cause elevated ozone levels. What can States do to 
control such natural events?
    Mr. McKee. Really very little, because if you look at the 
ozone problem, what causes ozone is the closer you get to the 
stratosphere, the higher those ozone levels are going to be.
    In my own area, we are a mile higher, and this is the case 
in much of the West. In these higher elevations, in particular 
for summer ozone, there is very little you can do. I do not 
know that we want to cut down all trees and all vegetation and 
bury it so that we do not have ozone.
    Senator Inhofe. Thank you very much.
    Senator Boxer.
    Senator Boxer. Thank you.
    I wish the whole Country could have seen this panel. You 
are all so good. There was one star witness, if I could say. 
You would normally think I would point to my Sacramento friend, 
who was pretty good, but I have to say Dr. Diette, thank you.
    You are not a politician and you are not a bureaucrat. You 
came here and you told us the impact of smog on the human body. 
You told us and did it very, very clearly, exactly what 
happens. You did not do it in some confusing manner.
    You said, ozone pollution is bad for the lungs. That is 
pretty straightforward. We all have lungs. It is bad for the 
lungs. You said it irritates the lungs, it causes symptoms. 
When you have ozone, sometimes in cases you can die from it. 
You said that. You further said that normal people also are 
impacted by ozone.
    What I loved about my second star, Larry Greene, was his 
point that he served in the military and he views his job as 
cleaning up the air and similar to that, protecting the lives 
of people.
    It just confuses me that we would argue over this in light 
of what you said, Doctor, which I do not think anyone at all 
would ever refute because they are facts.
    I would ask unanimous consent to place in the record, if I 
might, Mr. Chairman, By the Numbers, this shows us the cost of 
this regulation at the different standard, if it is 70 ppb or 
65 ppb. It shows you how many asthma attacks will be prevented, 
up to 960,000, Mr. Chairman, and 4,300 premature deaths.
    Close your eyes and think if it is someone you love whose 
lives will be saved. There would be a million days when kids 
would not miss school, 180,000 days when people would not miss 
work, and 4,300 asthma-related emergency room visits. Doctor, 
you expressed that well, of a mother or father panicking and 
leaving work to rush their child to get help. Also, 2,300 cases 
of acute bronchitis would be avoided among children.
    Everybody else, it is going to be hard. Yes, it is going to 
be hard. You know what? It is hard. When we passed the Clean 
Air Act, everybody said the same thing that my dear friend, the 
Chairman said, the same thing my friend the Majority Leader 
said, and Senator Thune, a staggering blow to the economy. They 
used the same words in 1970 and when we reauthorized the Act, 
the same words.
    Mr. Moore, Hon. Gary Moore, you are very good at expressing 
your view and you stand for a lot of people in your State. I 
agree with that, but honest to God, if you really want to look 
at what happens when there is no regulation on air, look at 
communist China, look at communist Eastern Europe. They have no 
regulations. The state did not want any. They did all the 
business and there were no regulations. People could not 
breathe. When that wall came down in Eastern Europe, they knew 
if they wanted economic growth, they had to clean up the air.
    I would ask unanimous consent to place in the record the 
number of jobs that have been created since we passed the Clean 
Air Act. Can I do that?
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much.
    It is very clear that while the aggregate emissions of 
common air pollutants dropped 72 percent, the U.S. Domestic 
Product grew 219 percent.
    Mr. McKee, earlier this year, a poll in Utah found that 67 
percent of voters there stated that air pollution and smog are 
extremely serious problems facing their State. Are you aware of 
that poll?
    Mr. McKee. I am aware of the information.
    Senator Boxer. You are aware of the poll. In 2013, ozone 
levels in one of your counties exceeded the Federal standard on 
54 days and concentrations spiked as high as 142 ppb, more than 
double the level of EPA's rule.
    Do you believe air with ground level ozone concentrations 
of 142 ppb is safe for people to breathe, especially for 
children?
    Mr. McKee. Senator----
    Senator Boxer. Can you just say if you think it is safe 
because my time is running out. I want to ask Dr. Diette if you 
do not answer it.
    Mr. McKee. If I could real quickly, we have spent millions 
of dollars. Our group did a study with admissions to our local 
hospital to see what effect respiratory illness had to do with 
ozone. They did not see any correlation with admissions.
    Senator Boxer. You do not think that 142 ppb is safe?
    Mr. McKee. We did not see it.
    Senator Boxer. What do you think, Doctor?
    Dr. Diette. One hundred forty-two ppb is an extraordinary 
value. It is lethal for people with heart disease, lung 
disease, diabetes and other conditions. It is a lethal dose of 
ozone.
    Senator Boxer. Thank you. That is enough. It says it all.
    We are here to make life better for people, not to fight 
for the polluters, period, end of quote.
    Senator Inhofe. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman and Ranking Member 
Boxer.
    Judge Moore, in your testimony, you discussed the potential 
impacts of a lowered ozone standard and state the proposed 
standard will dramatically increase the number of counties 
classified in nonattainment.
    As you noted, under this proposal, 16 States that currently 
have no counties in nonattainment would be subject to a new 
conformity process. This includes my State of Nebraska where 57 
out of our 93 counties would be classified in nonattainment. I 
will note that these are rural, agricultural counties.
    Can you speak about the potential costs that State and 
local governments will face in order to come into compliance 
and reach that attainment?
    Judge Moore. Yes. Actually, that number, according to our 
statistics, is if the 70 ppb standard were passed, it would be 
358 more counties nationally. At 65 ppb, it would be 558 more 
counties would be impacted.
    We know the challenges that Congress is having with passing 
a long-term transportation reauthorization. One immediate 
impact would be in the area of CMAQ funding, congestion, 
mitigation and air quality funding for transportation, to help 
improve our transportation system and congestion.
    I suspect that those dollars are not going to increase at 
the same percentage as the number of counties that will be 
competing for those dollars. Immediately, the program that is 
supposed to help nonattainment counties become in attainment 
will be impacted. Right there is an immediate financial impact.
    Road projects, as we continue to try to move our 
communities forward, rural communities depend on highway 
improvements to get people to jobs and jobs to the people as 
well as other services.
    More regulation will do nothing but delay projects, if not 
prohibit them, and increase costs. The impact on economic 
development is dramatic as well because of these similar 
challenges.
    If we saw transportation spending enhancements along with 
some of these requirements, it could potentially lessen the 
impact but it will never meet the additional financial impact 
these standards would have on local governments.
    Senator Fischer. Do you know if the EPA has considered or 
accounted for these costs with their analyses of the rule?
    Judge Moore. I have seen their statistics of their 
estimates and they do not fully capture the total cost that 
local governments and communities would face.
    Senator Fischer. Like Kentucky, Nebraska's counties and our 
local governments, they own and maintain a very vast road and 
transportation system. As I pointed out, the counties that will 
be affected are very rural counties. In Nebraska, it is not 
unusual to have one person per square mile in many of these 
areas.
    We already see maintenance projects that undergo what I 
view as a very cumbersome environmental review process and the 
costs of time involved which means money as well. These 
counties and the State cannot afford that.
    Can you briefly describe the current review process and 
what you see as burdens placed on our local governments under 
the proposed ozone rule for counties in nonattainment?
    Again, I would just like to say we all want clean air, we 
all want clean water, but we also need to recognize costs that 
are involved in I believe the expansion of the rule where we 
see areas in nonattainment that have not even met the current 
rule.
    We are talking about an expansion instead of focusing on 
areas where we need to focus. Let us take care of business. If 
you could answer that, I would appreciate it.
    Judge Moore. We do care about the health of our citizens, 
obviously. It is a huge responsibility we have.
    By the way, in Boone County, Kentucky, we were recently 
selected as the healthiest county in the Commonwealth. We are 
very proud of that statistic. We have done that by developing 
our community in a responsible way. We are working toward the 
2008 standards.
    The 2008 standards are having an impact. They are 
improving. We would like to see it play out and see if that 
does continue to develop. We believe it will. Let's let the 
2008 standards play out.
    Specifically to your question as to cost, those rural 
communities that will be added to the list of nonattainment are 
the counties that can least afford it. They have smaller 
budgets. Many times they have little to no staff to deal with 
these added requirements. I think you could see a dramatic 
impact on progress in those counties.
    The modeling that is required to be done, in order to 
construct or improve a highway system, requires substantial 
modeling. My colleague has spoken to the modeling question. Who 
is going to pay for that additional cost? It is either going to 
be on the local taxpayers or added to the cost of the project.
    As I stated earlier, there already are not sufficient funds 
to deal with our transportation needs. If you add delays and 
costs, you are adding additional responsibility to a system 
that already is not paying for itself.
    I really feel for my colleagues in the rural counties that 
would be asked to try to meet these new requirements. Let's let 
2008 play out and continue to make progress and someday discuss 
where we go from there.
    Senator Fischer. Thank you, Judge.
    Senator Inhofe. Thank you very much.
    I would ask unanimous consent that letters from two 
Democratic Governors, of Virginia and Kentucky, be made a part 
of the record. Both object to lowered standards.
    [The referenced information follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    Thank you all for your testimony. I want to clarify a 
couple points I found interesting in the discussion.
    The first is related to the challenge of complying with 
potential new standards. It is my understanding that the areas 
of the Country that have the biggest challenge with ground 
level ozone would have until 2037, 22 years from now, to 
comply.
    I do not know who would like to respond to that. I just 
want to clarify that is the case, because I do not think that 
has really been highlighted in the conversation. Mr. Greene.
    Mr. Greene. The worst areas would probably be San Joaquin 
and South Coast. They would get substantial time and I believe 
that is correct, sir.
    Senator Merkley. Certainly that is a factor in the cost. 
Virtually all of my home State is in compliance with the new 
standards. Yet, the cost estimates done by the National 
Association of Manufacturers said it would take Oregon $8 
billion to comply. How would it take Oregon $8 billion to 
comply if Oregon is already in compliance with the standards? 
Can anyone explain how those costs would be incurred?
    I see no answer. If the estimates are so grossly off for my 
home State, how much are they off for the rest of the Country? 
The estimates from NAM are so different from the estimates from 
EPA that I think we need additional insight from third parties 
to get an understanding of this.
    My understanding is from the EPA side, the health care 
savings would far exceed the cost to our economy and health 
care costs are a cost to the economy. Certainly that is 
something that makes sense.
    I was interested in the question of the pollution from 
China. I have been over to China a couple of times. Anyone who 
has visited for any length of time, you are probably going to 
have days you can hardly see the length of a football field. It 
is not fog, it is pollution.
    They had a recent documentary called ``Under the Dome'' 
that highlighted the vast impact on the health of the citizens 
of the Country. It is equal to smoking something close to two 
packs a day of cigarettes. Our diplomats are reluctant to be 
there. It does make sense that some of that pollution is making 
it to the U.S.
    While looking that up, the best estimates I could find, the 
biggest impact in southern California is in lower elevations, 3 
ppb to 8 ppb and in higher elevations, 15 ppb. Most of that 
arrives in the spring, not in the summer when California has 
the greatest compliance challenge.
    Mr. Greene, is that correct?
    Mr. Greene. That is correct. It occurs in the spring and 
that conforms with the numbers I have seen on California.
    Senator Merkley. I tried to find some sense of the 
contribution from Mexico. I did see the charts that showed no 
correlation between the areas of the U.S. most adjacent to 
Mexico or weather patterns that brought that pollution into the 
U.S. Does anyone have any insight to the direct impact from 
Mexico? Mr. Greene.
    Mr. Greene. Senator, I do know that our southern districts 
in California do have some significant impacts from Mexico, 
particularly dust. You would imagine that counties or areas 
right next to each other would exchange some pollution across 
the border.
    Senator Merkley. Is there a particular time of year that 
really affects compliance? Is it storms that blow north or 
certain winds that bring that dust into the U.S.?
    Mr. Greene. I would not know that answer, sir.
    Senator Merkley. The thing I find interesting is the health 
testimony. Thank you very much, Doctor, for your testimony. 
Asthma is a significant concern among my citizens. The other 
health impacts are substantial.
    I like the idea of our planning being based on the science 
of health impacts. Doctor, could you clarify again, am I 
understanding from what you are saying that there is a 
significant difference on health between the current standard 
and the proposed standard, that there would be a substantial 
improvement, reduced health costs and improved quality of life?
    Dr. Diette. All of those things are true. One of the 
reference points that has come up from time to time is about 
being currently in attainment with the present standard, for 
example, 75 ppb. For example, the Chairman mentioned that his 
State, every county, was in compliance.
    If you look at another resource, the American Lung 
Association's website, they have a state of the air statement 
about different counties. You would see in Oklahoma, for 
example, every county would get a grade F but for one, which 
would get a grade D. That is because that is based on science, 
not regulation.
    The science has advanced. Our interpretation of the science 
has advanced at a much faster pace than the regulation has. 
People are being harmed by it. It is very clear. I think that 
is the standard about which we should be thinking, the one that 
is fully protective of human health as opposed to the legacy of 
another era.
    Senator Merkley. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I thank the 
Ranking Member and I want to thank the panelists.
    Mr. Srikanth, I wanted to ask you to explain to me the 
threat of conformity in terms of the threat of conformity 
lapses which could effectively shut off Federal highway funds 
due to the stringency of the standard.
    Both in D.C. and around the Country, smaller, more rural 
MPOs will have significant burden on these MPOs. Can you 
explain to me the conformity issue? You brought it up in your 
statement, but could you flesh it out a bit more for me, 
please?
    Mr. Srikanth. I would be happy to, Senator Capito.
    The transportation conformity is associated with the Clean 
Air Act. Metropolitan planning organizations have to follow the 
rules put out by the EPA on how to conduct this.
    One of the key drivers of the transportation conformity 
rule is when an area is designated as not being in attainment 
of a standard, they are required to submit what is called a 
State Implementation Plan, a plan on how that area will attain 
the standard.
    That document, the State Implementation Plan, will identify 
the amount of emissions from different sectors, from power 
plants, area sources and transportation. The amount of 
emissions for transportation listed in the State Implementation 
Plan is often referred to as the emissions budget.
    A metropolitan planning organization's long-term 
transportation plan is required to be developed in order to get 
Federal funds. The emissions from all of those projects, at a 
minimum of 20 years into the future, have to be below these 
levels in the State Implementation Plan. If it is not, then the 
plan will not be approved.
    The plan has a time limit. If the plan remains not 
approved, then the plan would lapse. If the plan lapses, the 
Federal transportation funding will not be provided until the 
plan is corrected.
    Senator Capito. To your knowledge, has that occurred under 
the standards we have now? Do you know of anyone across the 
United States who has not been in conformity and had their 
Federal highway dollars withheld?
    Mr. Srikanth. We have had instances. I will have to get 
back to you on specifics. I think my colleagues might be able 
to recall specific jurisdictions. Atlanta certainly comes to my 
mind.
    Senator Capito. Judge Moore, are you aware of any of that?
    Judge Moore. From a couple of my colleagues, I believe 
Atlanta would also be an example of where that has happened.
    If I may also comment, the recent court ruling is 
requiring, in many cases, that modeling of conformity not only 
be applied to the 2008 standards but also the 1997 standards. 
You would have to meet both.
    If new regulations were passed, there may be three 
different standards and models that some regions would have to 
run in order to make sure we were compliant and eligible for 
Federal funds. There is also that confusion and the overlap 
that MPOs and regions are facing.
    Senator Capito. I would have to add myself to that 
confusion. Certainly drawing up three implementation plans 
would be costly.
    I think one of you mentioned the amount of your budget 
dedicated strictly to this issue, a quarter of the budget you 
are using to measure and make sure you are measuring properly.
    I heard a comment that people are advocating for no 
regulation. I have not really heard that in this committee and 
I have not heard it from any of the testimony today. I 
certainly do not believe that to be true.
    When you look at what is going on in terms of ozone and put 
on top of that the Clean Power Plan and EPA possibly looking at 
redoing their emissions plan for methane, particularly in the 
western States, we have a lot of oil and gas in the State of 
West Virginia, it begins to become a burden.
    If we have to do three implementation plans and devote all 
the resources to that, it begins to lack the thing I think 
Senator Flake was calling for, basically common sense here. Let 
us move with common sense.
    Mr. McKee, could you comment on all of the different moving 
parts that EPA is going to be putting forward if they are 
successful with the regulatory environment we see right now?
    Mr. McKee. We certainly find it difficult in the area where 
we are, and as I stated, in the West, because particularly with 
the lowering of the ozone standard itself, much of the United 
States will not be able to meet attainment.
    If you go down to 70 or 65 ppb, as you realize, ozone 
itself does not just happen. It is a mixture with VOCs and 
NO<INF>x</INF> and that comes together. It just does not happen 
on its own. As I talked about the trees and vegetation, it is 
somewhat of a decaying of those products that in summertime 
elevates those standards.
    Then the higher elevation we have, the more difficult it is 
to be able to correct that. It is very possible, even absent 
all emissions, we would have significant areas in the United 
States that would still be in nonattainment.
    Senator Capito. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Capito.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    I would like to make a few points that I do not think have 
been made yet.
    The first is that the present regulation is one that was 
conceived in scandal. To set the present standard, the Bush 
administration EPA, under Administrator Johnson, departed from 
the consistent recommendations of his agency scientists, public 
officials and the agency's own Scientific Advisory Committee.
    The standard then set was inadequate to protect the public, 
especially children and the elderly, from the harmful effects 
of ozone pollution from asthma and lung disease. Indeed, it was 
so inadequate that EPA's own Clean Air Scientific Advisory 
Committee took the unique step of writing to the then-
Administrator to state that they ``do not endorse the new 
primary ozone standard as being sufficiently protective of the 
public health.''
    They went on to say that EPA's decision ``fails to satisfy 
the explicit stipulations of the Clean Air Act that you ensure 
an adequate margin of safety for all individuals, including 
sensitive populations.'' That was the finding of the Clean Air 
Scientific Advisory Committee at the time.
    Since then, Dr. Diette, as the science on this gotten 
clearer or less clear?
    Dr. Diette. It has become increasingly strong. There are 
additional studies in multiple regions of the Country and 
throughout the world that have strengthened the evidence base. 
They have also been conducted in the era when the current 
standard has applied, so it is in an era where there are lower 
concentrations of ozone and people are still finding 
substantial signal for health issues.
    Senator Whitehouse. We also know overall that, at least at 
the 70 ppb standard, the estimated health care savings and 
benefits, the estimated environmental savings and benefits, the 
estimated economic savings and benefits from that rule could 
add as much as $13 million, whereas the costs would only be 
$3.9 billion. It creates a $10 billion immediate benefit 
according to those calculations.
    The third thing I would like to point out is on the path of 
Rhode Island. Rhode Island is a downstream State. We are often 
out of compliance on ozone. We have days in the summer when, as 
you are driving in to work, what you hear on the radio is the 
announcer saying today is a bad air day in Rhode Island. 
Children should stay indoors. Elderly should stay indoors. 
People with lung or breathing difficulties should stay indoors.
    It looks like a beautiful day but it is ozone. Where does 
the ozone come from? It comes from power plants in the Midwest.
    Judge, your State of Kentucky has 22 smoke stacks that are 
higher than 500 feet. When you build those high smoke stacks, 
you shoot the pollution, the SO<INF>x</INF> and the 
NO<INF>x</INF>, according to the GAO study, 56 percent of the 
boilers attached to tall stacks lack scrubbers to control 
sulfur dioxide and 63 percent do not have controls to trap 
emissions of nitrogen oxides. As Mr. McKee just pointed out, 
those are the precursors to ozone.
    You build high smoke stacks, you eject the stuff out of 
your State, and it goes up into the heat and into the 
atmosphere. It creates ozone and our kids in Rhode Island have 
to stay indoors on an otherwise good day.
    I do not see how that is fair. I do not see how there is 
any way in the world Kentucky is ever going to pay attention to 
that problem when the harm is taking place in Rhode Island.
    It is really important, Mr. Chairman, that this be a rule 
that protects States that are not just pollution-emitting 
States. We are a downstream State that pays the price of 22 
tall smoke stacks.
    Let me ask one last question about altitude. We have heard 
from Mr. McKee a couple of times about the problem of being a 
high altitude State. Dr. Diette, could you react to that? What 
is the reality of that?
    Dr. Diette. I think there is a lot to know about altitude 
and regional transport of some of the pollutants. In some 
cases, pollutants are generated near where they are found and 
in some cases, they are transported from a distance.
    If you think about places like some parts of Utah, for 
example, where there are thermal inversions, there are 
pollutants created there that cannot escape into the upper 
atmosphere. Sometimes that is what happens. Other times, there 
is transport from a distance and also ends up there.
    I wanted to remark about a point you made because we say it 
so often that I think it is really remarkable. As you talked 
about telling kids to stay indoors on a day when there is 
transport of ozone into their State, that is a remarkable 
statement.
    It is a remarkable thing to have to tell your entire 
population, today is not a safe enough day for you to go 
outside and play. If you go outside and play, you have to wait 
until the sun is down, you have to wait until it is dark when 
maybe it is safe or not. It is an unbelievable message.
    When my patients come to me and say, what can I do about my 
asthma, one of the things I can say is, I can keep giving you 
more medications. They say, what about pollution, what can I do 
and I say, there is nothing you can do. The free market does 
not change that. You cannot buy a different product and not be 
exposed to pollution.
    This process here, which is the only way to control it in 
the United States, is to do it at the Federal level and try to 
keep the pollution from reaching them.
    Senator Whitehouse. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Whitehouse.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Doctor, I appreciated your comments. I have a grandson who 
has a challenge with asthma. This is something I think all of 
us care about.
    Some of the information you laid out for us today indicates 
that 140 ppb would be fatal. Could you work a bit backward from 
there? I am assuming 100 ppb is still perhaps not fatal but 
absolutely critical in nature and one that should be attained, 
a fair statement?
    Dr. Diette. That is a great question. I thank you very much 
for it.
    It is not simply a threshold. The reason I reacted to 110 
or 120 ppb is that is an extraordinarily high value. It is a 
value that would set off alarm bells for a region. That is one 
of the days we would be talking about not having the kids go 
outside. There is a dose response effect, so we see it even at 
much lower concentrations than that.
    Arbitrarily, investigators choose things like 5 ppb or 10 
ppb as an increment but very small increments, even in the 
lower range, can affect health, even during low increments.
    Senator Rounds. What do we call the lower ranges? What are 
the numbers you have seen studied in terms of lower ranges of 
ozone?
    Dr. Diette. I think the best evidence I have seen comes in 
the 60 ppb and higher. There has been a lot of attention to 
that range between the current standard of 75 ppb and 60 ppb 
which is the proposed lower bound of the new standard.
    Senator Rounds. The reason I ask is that I have a study I 
would like entered in the record, Mr. Chairman.
    [The referenced information was not received at time of 
print.]
    Senator Rounds. It is a reference out of Atmospheric 
Environment done by Mr. Emery back in 2011 in which he 
indicates that a significant amount of the geographic area in 
the western part of the United States actually has a background 
of about 70 ppb, apparently not caused by us but simply 
background.
    I am curious, in your studies looking at the sound science 
side of this, is it even attainable, is it even possible to get 
to something under a 70 ppb when in those States in which 
literally there seems to be some pretty sound evidence that is 
a natural background level?
    Dr. Diette. I think you have brought up an important issue 
which is, what is the background concentration? For one, it is 
not measurable. You cannot measure it directly, because we do 
not have the time and the space where there is not manmade 
contribution to the ozone concentration. The only thing you can 
do is estimate.
    There are different estimates and most of the estimates I 
have seen are between 20 and 40 ppb. In terms of background, we 
are talking about a couple of phenomena. Some definitions 
include transport into an area where it is being measured for 
another area and others are that being generated by things that 
have nothing to do with man.
    For example, a forest fire, if man had nothing to do with 
it, that is going to happen anyway, or lightning strikes, 
things of that sort.
    Seventy parts per billion sounds really high. That is not a 
value that I have seen reproduced otherwise. I would probably 
defer to my other colleagues here about what it takes in order 
to attain standards since that is their expertise and not mine.
    Senator Rounds. I am curious. We have used references in 
terms of the number of packs of cigarettes per day and so forth 
that an individual would utilize.
    If you were to take a reference, if 100 ppb of ozone was 
comparable to a pack a day, is there relevance to saying it is 
very important that we bring down ozone from very, very high 
levels in those areas where there is significant and direct and 
acute damage being caused?
    Are we putting our resources and attention into the right 
locations by saying we want to work to get everybody to 65 ppb 
or 60 ppb when in essence we could be saving a lot more lives 
if we were to focus on those areas such as those in California 
which have very, very high numbers? Where is our best bet for 
saving the most lives?
    Dr. Diette. You raise a bunch of very important and 
interesting points. One of the issues I have heard here is 
ideas such as we should get everyone into attainment first 
before lowering the other people who are already in attainment.
    As a health care provider, that strikes me as very unusual. 
To me, the analogy would if we had a new drug that could cure 
asthma, we would say, you are not going to get it yet because 
all the people who can benefit from the existing drugs do not 
have them yet. That is the way it sounds to me.
    It sounds as if we are going to keep people who could 
benefit from benefiting while we are waiting for other people 
who are not benefiting already to catch up. It seems very 
strange to me from a health care standpoint. I would not 
advocate it for my patients.
    Senator Rounds. Let me go to Judge Moore for a second. You 
did not get an opportunity to respond and I thought perhaps you 
would like to.
    When we start talking about NO<INF>x</INF> and the 
references with regard to the creation of ozone in your 
particular State where you have power plants, are you currently 
in compliance with those standards? What would be your thoughts 
in terms of the reference our friend from Rhode Island made?
    Judge Moore. Thank you for the opportunity. I did want to 
respond.
    Our county is a suburban county. We are not a smokestack 
county. We are in moderate nonattainment currently because of 
emissions that are flowing into our county from other parts of 
the Country.
    I think Senator Whitehouse helped make our case that you 
are putting regulations on counties that really cannot control 
the ozone level in their counties. Those rural counties that 
maybe are reaching levels under a new standard that would 
require additional costs and regulations, you are putting those 
requirements on them when it is not going to have an immediate 
impact or possibly a long term impact on the issue.
    I would also differ with him on smokestacks. I think he is 
referring to Kentucky Coal and Energy, coal-fired power plants. 
I do believe there are clean coal technologies that are working 
and moving forward. The 2008 standards put substantial 
requirements upon those power companies to make sure they meet 
the 2008 standards.
    Again, we would come back to let's let that play out. 
Improvements are being made. Let's continue to make those 
improvements before we put regulations on communities that are 
not going to have an immediate impact.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I want to thank our witnesses for testifying today. This is 
an important topic for my State. There are few, if any issues, 
more important than the health of our children and the air they 
breathe every day.
    Now that it is summer, more children will be spending more 
time outdoors. We know how active young people are when they 
are outdoors, playing sports, games, and activities. You also 
know children's lungs and immune systems are still developing, 
leaving them particularly susceptible to the negative health 
effects of increased ozone layers.
    In fact, a 2010 study conducted in New York City found that 
ozone associated with warmer weather aggravates children's 
asthma leading to severe asthma attacks that could have been 
avoided. Asthma rates are rising in our young people. They are 
missing school days and emergency room visits for respiratory 
distress are on the rise.
    I introduced legislation last month, the School Asthma 
Management Plan Act, to assist schools in helping young people 
when they have asthma attacks. I am committed to taking active 
measures to make the air that we breathe safer for the whole 
population.
    There is significant evidence that lowering the ozone 
standard will do that. I applaud the EPA for heeding the 
science and proposing to strengthen the ozone standard to be 
more protective of public health.
    The cost of inaction is immense, increased number of 
hospital visits, increased health care costs, even premature 
death. The current value of 75 ppb of ground level ozone is 
outdated and does not reflect the current science.
    I would like to ask Mr. Greene and Dr. Diette the 
following. The EPA has an air quality alert system that allows 
caregivers to easily determine if the air quality is safe for 
kids to play outside. We talked about that earlier.
    For children who have compromised immune systems or 
preexisting respiratory conditions like asthma, this alert 
system is very important. Air Quality Index values are reported 
daily and fall into the following levels: good, moderate, 
unhealthy for sensitive groups, unhealthy, very unhealthy and 
hazardous.
    I assume both of you are familiar with the alert system. 
Under this current system, an ozone level of 75 ppb or higher 
is considered unhealthy for sensitive groups. Based on the 
current standard, do you think families are being sufficiently 
informed and protected against the dangers of air quality on a 
given day?
    Dr. Diette. I think there is a bunch that is important in 
what you mentioned which is the alert system is based on acute 
spikes. That means today is a bad day or tomorrow is about to 
become a bad day and you should take care.
    That is also part of the story. There is chronic exposure 
and acute exposure. There is increasing evidence that chronic 
exposure, even at lower levels than would set off the alarm 
bells, are harmful to people with preexisting diseases like 
cardiac disease and respiratory diseases.
    The spikes you talked about are very important. It is a 
good alert system, but it does not mean you would want that 
system to have to be in place. The ideal is to not have those 
spikes coming so there would not be those dangers.
    Telling people to not go outside is not fully protective. 
Ozone comes inside from outside. All pollutants come inside 
from outside.
    Senator Gillibrand. The CDC reports 1 in 11 children and 1 
in 12 adults have asthma. This costs the United States economy 
about $56 billion a year. More specifically, for a family with 
a child suffering asthma, the cost is at least an additional 
$1,000 in health care charges a year.
    Over the last decade, the proportion of people with asthma 
in the U.S. grew by 15 percent. How does poor air quality 
further impact those who suffer from asthma?
    Dr. Diette. Someone who has already developed asthma is a 
vulnerable person. Since you have been talking about children, 
children born prematurely also, there is a strong signal that 
whether or not they go on to develop asthma, they also are a 
vulnerable subset. Children born early or prematurely are 
vulnerable.
    Ozone is a very provocative substance. It is an oxidizing 
substance that irritates and bothers the airways of someone 
with asthma so it can provoke an attack.
    Senator Gillibrand. I am also concerned about extended 
exposure. Can you describe why children, in particular, are 
among the most vulnerable to elevated ozone levels and are 
health impacts for children exposed to this type of pollution 
long lasting?
    Dr. Diette. Kids are different than adults in a lot of 
ways. One is that they tend to be outside playing, for example. 
When you are outside playing, you breathe more, so you breathe 
deeper and you breathe more frequently, so you inhale more of 
whatever it is that is around you. That is one of the reasons.
    Also, their lungs are developing. One of the goals in life, 
if you are thinking about your lungs, is to grow you lungs to 
the biggest they will ever be, which happens by about your 
twenties.
    Things that interfere with that are a problem because you 
do not get as good a lung function to start your adulthood. We 
all lose lung function after that.
    Part of it is an issue about what is aggravating at the 
moment. Another is trying to grow your lungs to the biggest 
they can be.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Gillibrand.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Dr. Diette, in the Journal of Pediatrics, 2004, you 
conducted a study with a host of other authors entitled, 
Emotional Quality of Life and Outcomes in Adolescents with 
Asthma. The study, in its conclusion, says, ``Adolescents 
reporting worse asthma specific emotional quality of life 
reported more frequent school absence, doctors' visits for 
asthma,'' also poor asthma-specific emotional quality of life 
was strongly related to worse asthma control. What causes 
specific emotional quality of life issues?
    Communities and businesses across the Country are telling 
us counties that are designated as in noncompliance with this 
new ozone standard will see construction jobs and economic 
activity grind to a halt. It has been mentioned according to a 
story from the National Association of Manufacturers, EPA ozone 
rules could cost up to 1.4 million jobs.
    Based on your research, what would be the impact to 
children with asthma in communities that have high 
unemployment, chronic high unemployment due to joblessness?
    Dr. Diette. That is quite a string of events you are 
connecting.
    Senator Barrasso. I am connecting parents that are more 
likely to be alcoholic, more likely to have problems of 
substance abuse, spousal abuse, all related to chronic 
unemployment based on positions of this Administration going 
after jobs for hardworking Americans.
    I think it is not a string of events. I practiced medicine 
for 25 years. I have taken care of lots of families under 
chronic, long-term unemployment and know the health of those 
families is documented as worse and the stresses on those 
children are worse and aggravated.
    Did you say I am right? Is that what you said? Did you say 
I am right?
    Dr. Diette. Yes.
    Senator Barrasso. Thank you.
    Dr. Diette. Excuse me, though. You brought up a good point 
about the study because the report you talked about was one of 
several that came from that particular study.
    Another one in that same series was also looking at the 
impact of poorly controlled asthma on subsequent school 
attendance and parents attending work.
    If you are going to string all these things together, I 
think you need to be careful to look at the entire chain of 
events. When someone's asthma, particularly a child's asthma, 
is aggravated, just like any other illness that a child has, it 
impacts the family immensely. That means when you talk about 
jobs, if that is your target, mom or dad is not going to work 
the next day after there is an asthma attack.
    Senator Barrasso. Mom and dad are not going to work because 
they are one of those 1.4 million who have lost their job as a 
result of this policy.
    Dr. Diette. It does not matter what industry an asthmatic 
is in, if they are sick, they cannot go to work. That is true 
for adults and it is true for the parents of the children who 
are sick.
    I think that is the important point. You are right that we 
are not just talking about jobs in one sector. We are talking 
about jobs across the United States, if you are talking about 
the impact of the millions of days of work days lost.
    Senator Barrasso. We are talking about jobs that are lost 
as a result of a policy by an Administration and the impact on 
the families impacted by the loss of the job and the chronic 
unemployment that comes with this.
    Certainly I think it worsens quality of life across the 
board. Johns Hopkins has done studies to that effect. It 
affects peoples' income levels if they are not working.
    Dr. Diette. To be clear, my studies do not look at the 
issue you are bringing up. It does not look at the issue of 
that chain of events.
    Senator Barrasso. Emotional quality of life, you would 
agree, is impacted if families are out of work? If dad or mom 
do not have a job, take-home pay has gone away, then there are 
subsequent things that happen in those families and impacts the 
quality of life not just the person who lost the job but the 
whole family.
    Dr. Diette. That is true.
    Senator Barrasso. Mr. McKee, activist groups, like the 
Sierra Club, are pursuing aggressive strategies to support 
extreme reductions in ozone. They are encouraging the EPA to go 
as far as they can with their ozone rule.
    Last week, Politico ran a story entitled, Inside the War on 
Coal: How Michael Bloomberg, Red State Businesses and Lots of 
Midwestern Lawyers are Changing American Energy Faster Than You 
Think.
    The author highlighted the Sierra Club has now launched 
their beyond natural gas campaign to begin to eliminate natural 
gas from our electric grid. On the website, the Sierra Club 
says, ``Increasing reliance on natural gas displaces the market 
for clean energy, harms human health,'' blah, blah, blah.
    My question is, under the EPA's ozone rule, if they listen 
to these outside groups and put forward a strict standard, is 
there a likelihood that natural gas development, which the 
Sierra Club is against, will be under threat?
    Mr. McKee. It definitely would be. We can see what has 
happened with coal. Natural gas is the next target. Natural gas 
is the clean carbon fuel that we are using today. Yes, we are 
very concerned about that.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso.
    Senator Carper.
    Senator Carper. Thank you all for being here.
    When I was Governor of Delaware, we launched a mentoring 
initiative urging companies to adopt kids as mentors, high 
schools to adopt elementary schools and we recruited about 
10,000 mentors. I was one of them.
    I started mentoring a young man when he was in the fourth 
grade until he graduated from high school, ready for this, at 
the age of 20 and a half. He missed a lot of school growing up. 
So did his brothers.
    One of the reasons he missed a lot of school was because he 
had asthma. He had a hard enough time coping even when he was 
going to school regularly, sitting in class and had an even 
harder time when he was not there. It was hard on his mom 
having to support five kids, five boys, working and trying to 
do her job and be a nurse as well.
    I just wanted to share that with my friends. This is real. 
We do not just make up this stuff. It really does happen.
    Mr. Greene, a retired Navy Captain, thank you for your 
service.
    My understanding is EPA already has regulations in the 
works to help States reduce ozone. If these rules are not 
delayed, hopefully they will not be, we are likely to see, I am 
told, somewhere between 9 to maybe as many as 59 counties in 
nonattainment outside of California in 2025. Those are the 
numbers I have been given, 9 if the standard was set at 70 ppb 
and could be as high as 59 if the standard was set at 65 ppb. 
Can you confirm that for me? Does that sound right?
    Mr. Greene. I cannot confirm that, sir.
    Senator Carper. That is fine. I will. Thank you.
    Many of these counties would have to do more to find 
reductions, these 9 to as many as 59, depending on what the 
standard is but the majority of America will meet the standards 
that are proposed.
    If this is not your understanding, how important are 
Federal rules to help States reduce ozone? Whether it is 9 or 
59 counties outside of California in 2025, how important are 
Federal rules to help States reduce ozone?
    Mr. Greene. I think the point made earlier was really 
critical, that what we have here is clear evidence that public 
health is impacted by ozone at a level that is lower than the 
standard. That occurs across many parts of the U.S., many of 
which are in attainment and many have that problem.
    You have citizens across the U.S. with impacts that the 
EPA, doctors and much research has shown that their health is 
impacted. Yet, they are told they are in attainment areas and 
their air quality is fine. From our perspective in our 
district, we are a public health agency and are there to 
protect the public. We follow the science, work very closely 
with our business community and have been very successful.
    Our economy is doing well. We are building a new basketball 
stadium, so lots of good things are happening in Sacramento, 
but we are severe nonattainment area. We will be for quite a 
number of years.
    We expect to continue with the success we have had for our 
business community. We work with our NT on a regular basis. We 
do very well. We are using up our Federal money but we are 
doing it in slightly different ways than we used to because of 
the conformity issues, but they are in conformity and we are 
doing fine.
    Senator Carper. Thank you.
    I have one quick question for Mr. Srikanth. You mentioned 
in your written testimony that Federal efforts should include 
``timely enactment of implementation rules and guidance for all 
new standards.''
    Does this mean you are not supportive of any delays in 
EPA's proposal for a new health standard or delays in EPA's 
efforts to help States address ozone pollution across State 
boundaries such as stronger vehicle standards on emissions?
    Mr. Srikanth. In my testimony, I am referring to a current 
set of emission controls that the EPA has promulgated. Within 
the transportation sector, there is one that addresses vehicle 
emissions called the Tier 3 standards. There is the fuel the 
vehicle uses, low sulfur fuel.
    Those have been enacted. They have just been enacted. The 
Tier 3 standards go into effect on a rolling cycle between 
model years 2017 and 2025.
    It is important that one, the implementation and benefits 
from those control programs realized so regions depending on 
those to demonstrate attainment can do so. There should not be 
any delay.
    Similarly, for transport pollution, EPA is currently 
working on another rule. That needs to be enacted in a timely 
manner so that the regions can realize those benefits and then 
attain the standards. At the end of the day, it is very 
important to attain those standards for public health reasons.
    Senator Carper. Thank you all for being here.
    Thank you, Mr. Chairman.
    Senator Inhofe. Senator Markey.
    Senator Markey. Thank you very much, Mr. Chairman.
    The Clean Air Act mandates that we protect public health 
from known threats based on science and the science is clear 
that the current ozone level should be lowered. Whenever it 
becomes clear that new actions are needed to protect public 
health, opponents of the actions use the same old arguments.
    Before the 2008 ozone standard was finalized, we heard this 
standard would cripple the economy, but this was just not true. 
In Massachusetts, both air quality and our GDP increased even 
as the ozone standard tightened. Our GDP increased 
significantly.
    A new ozone standard will require changes in some 
industries. America is a Country of problem-solvers. Pollution 
is a problem that we can solve. As a State downwind of most of 
the rest of the Country, it is critical that we have national 
standards that create solutions to a national problem. 
Massachusetts cannot solve the problem alone.
    My first question is to Dr. Diette. There were 20 studies 
cited in your testimony on the health hazards of ozone, all 
published in an 8-year timeframe, all adding to the mounting 
justification that the current ozone standard must be lowered 
to protect public health.
    Given the pace of scientific research on the health impacts 
of pollutants, do you believe changing the assessment period of 
a new standard from every 5 years to every 10 years would have 
a negative impact on public health protections?
    Dr. Diette. I think it sure could. It depends upon which 
pollutant we are talking about or which substance in general, 
but you are right that the science does change. I think we 
should reevaluate what the science tells us periodically. If we 
allow a whole decade to go back, that may be too long.
    Senator Markey. Mr. Greene, you said with adequate 
compliance times and good partnerships among government 
agencies and the business community, Sacramento is on track to 
meet the ozone standards within your compliance timeframe. 
Under the pressures of our national ozone standards, your 
region has made significant progress cleaning up its smog 
problem even with the unusual population and geographic 
challenges that promote ozone buildup.
    Do you agree waiting until a past standard has been met to 
set a new standard would weaken the momentum of clean air 
innovation?
    Mr. Greene. I think the biggest place that is going to 
impact is in our area, 80 percent of the pollution comes from 
mobile sources. That occurs more and more as we get further 
into the ozone problem around the Nation.
    You are not only impacting the health of people around the 
Nation where they should be protected by the Clean Air Act, but 
you are also slowing down other regulations on vehicles, 
planes, trains and automobiles, for example, that would help 
those areas that are in nonattainment.
    Senator Markey. Dr. Diette, I will come back to you, if I 
can. The national ozone standard has real world impacts on the 
health of kids, workers across our Country, hospitalization, 
and even deaths caused by ozone pollution.
    If the ozone standard was set at 60 ppb, do you believe a 
significant number of deaths and life threatening respiratory 
events could be avoided?
    Dr. Diette. I do. I think there is really good evidence for 
it, both from the observation of the evidence that at very 
small increments of ozone, there are measurable increases in 
death rates from a variety of conditions.
    I could refer you to a very good article from Berman and 
colleagues in Environmental Health Perspectives in 2012 which 
provided an estimate of what would actually happen if everyone 
came into compliance with the 75 ppb which would improve 
mortality but showed successively greater benefits from 
dropping to 70 ppb and to 60 ppb.
    Senator Markey. In 1900, the average age of death in the 
United States was 48 years of age. We have gone from the Garden 
of Eden to 1900, when the average age of death in the United 
States was 48 years.
    Then we began to implement public health policies, clean 
air, clean water, safe meat, and safe drinking water. The meat 
industry did not like it. They said it was going to kill jobs 
and the industry.
    The truth is whether it be the automotive industry or the 
meat industry, you name it, these new standards wound up 
extending life expectancy in the United States to 79 years of 
age, 31 years of bonus life that has been added to the average 
American just in the last 100 years with these public health 
interventions.
    What value do you put on that, seeing your grandmother, 
seeing your grandfather live to an older age, knowing that 
young children do not die from the things that used to cause 
death in our Country? What value do you put on that?
    Yet, we do it simultaneous with having a robust economy in 
our Country with unemployment actually going down right now. It 
has been going down since we began the recovery from the 
economic collapse created completely unrelated to any clean 
air, clean water, or safe drinking laws in our Country. It was 
economic malfeasance on Wall Street that caused it.
    In each one of these instances, we see that innovation 
develops new catalytic converters, new ways of generating 
energy, and new ways of solving the problem are developed once 
Americans are told there is now a requirement that we must 
innovate. I would say this is just going to be one more 
instance where that occurs.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Markey.
    That will conclude the number of individuals here. Senator 
Boxer would like to have an additional 2 minutes and I would 
also.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    No one has refuted Dr. Diette's simple eloquence on the 
dangers of smog, no one. You all respected that.
    The argument is, cleaner air means fewer jobs. As Senator 
Markey said, and as I have proven with my documents, that is so 
much baloney. It is disproven by the facts. The facts are, as 
we clean up the air, more jobs are created.
    Everyone knows California is a leader on environmental 
matters. We are. I am going to ask unanimous consent to place 
in the record, today's San Jose Mercury News, Jobs in the 
Region Nearing Record. It underscores what my friend from 
Sacramento said.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. To sit here and say there are going to be no 
jobs and no development as you meet the standards is totally 
false. It is ridiculous. That is why 64 percent of people in 
our State, Mr. McKee, say, protect us. We are not supposed to 
protect the polluters. We are supposed to protect the health of 
the people while ensuring that we have an economically robust 
society. We have done it over the years.
    I ask unanimous consent to place in the record a letter 
from ten public health groups including the American Lung 
Association, the Heart Association, the Stroke Association, the 
Allergy and Asthma Network and others, supporting the EPA rule.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. I also ask that a letter from Colorado 
supporting the rule, three letters from Maine, six letters from 
Illinois, a letter from Michigan, four letters from 
Pennsylvania and four letters from Virginia be placed in the 
record.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Boxer. Mr. Chairman, I thank you so much for this. 
I know we are at odds on this, but to me, it is so clear what 
our job is. As a committee, we are the environment committee. 
We are not the pollution committee. We are supposed to protect 
people from harmful pollution and do it in a way that is smart.
    EPA has developed the numbers. The cost benefit ratio is 
there. When I listened to Senator Rounds talk about his family 
member with asthma, I think to myself how lucky he is to be in 
a position to protect that child and all of America's children.
    I thank you so much for this opportunity.
    Senator Inhofe. Thank you very much.
    Since you were mentioned by name, Judge Moore, is there any 
final comment you would like to make?
    Judge Moore. I would just say that we do care about the 
health of our community. From early childhood development 
programs I have started in my community to elderly programming, 
it is important.
    I have three grandchildren that live in my county. I have 
two grandchildren who live in Senator Boxer's State. We do want 
them protected.
    We are making improvements with the 2008 standard. We are 
doing it while the economy is growing and the Nation is 
prospering. We want the opportunity to continue to do that 
under the 2008 standard because we are doing it right.
    Thank you.
    Senator Inhofe. Thank you very much.
    As I said earlier, in Oklahoma, we are doing it right too, 
because all 77 of our counties, as I mentioned, are all in 
compliance now. However, with the standard lowered, all 77 of 
our counties would be out of attainment.
    We appreciate all five of you. It has been an excellent 
meeting. We appreciate the time and inconvenience you went 
through to be here. Thank you so much.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
    [An additional statement submitted for the record follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Mr. Chairman, thank you for holding today's hearing on the 
EPA's Proposed National Ambient Air Quality Standard for 
Ground-Level Ozone.
    I would like to thank Dr. Diette for joining us here today 
to discuss the EPA's proposed ozone standards. Dr. Diette is 
Professor of Medicine at Johns Hopkins University and Professor 
of Epidemiology & Environmental Health Science at the Bloomberg 
School of Public Health. His research focuses on identifying 
factors that cause or provoke asthma. He has been especially 
interested in air pollutants and allergens that are problematic 
in inner city homes and has done a significant amount of 
research on the health effects of air pollution in Baltimore in 
particular.
    In 2009, 13.9 percent of Maryland adults and 17.1 percent 
of Maryland children had a history of asthma. From 2005-2009, 
an average of 66.6 people died per year due to asthma.
    Further, low income households (those with household 
incomes less than $15,000) had an asthma rate of nearly twice 
that of households with incomes more than $75,000. Finally, 
between 2007 and 2009, asthma prevalence for Black, non-
Hispanic children (14.9 percent) was nearly double that of 
White, non-Hispanic children (7.5 percent).
    Dr. Diette is also a practicing physician specializing in 
pulmonology, caring for people with lung disease, asthma and 
other respiratory diseases. He was appointed by the Maryland 
Governor as a Commissioner for the Children's Environmental 
Health and Protection Advisory Council. Dr. Diette, welcome.

    [Additional material submitted for the record follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                         [all]
                     
</pre></body></html>
